<html>
<title> - HOMELAND SECURITY: THE NEXT 5 YEARS</title>
<body><pre>[Senate Hearing 109-976]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-976
 
                  HOMELAND SECURITY: THE NEXT 5 YEARS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION


                               __________

                           SEPTEMBER 12, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
30-595                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

                        Allison J. Boyd, Counsel
                      Melvin D. Albritton, Counsel
            Jennifer A. Hemingway, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
                   Holly A. Idelson, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Domenici.............................................     5
    Senator Levin................................................     6
    Senator Coleman..............................................     7
    Senator Dayton...............................................     8
    Senator Warner...............................................     9
    Senator Voinovich............................................    10
    Senator Bennett..............................................    12
    Senator Carper...............................................    13
    Senator Lautenberg...........................................    33

                               WITNESSES
                      Tuesday, September 12, 2006

Hon. Michael Chertoff, Secretary, U.S. Department of Homeland 
  Security.......................................................    14
Leroy D. Baca, Sheriff, Los Angeles County, California...........    40
Richard A. Falkenrath, Ph.D., Deputy Commissioner for 
  Counterterrorism, New York City Police Department..............    44
Steven N. Simon, Hasib J. Sabbagh Senior Fellow for Middle 
  Eastern Studies, Council on Foreign Relations..................    48
Daniel B. Prieto, Senior Fellow and Director, Homeland Security 
  Center, Reform Institute.......................................    52

                     Alphabetical List of Witnesses

Baca, Leroy D.:
    Testimony....................................................    40
    Prepared statement...........................................    69
Chertoff, Hon. Michael:
    Testimony....................................................    14
    Prepared statement...........................................    59
Falkenrath, Richard A., Ph.D.:
    Testimony....................................................    44
    Prepared statement...........................................    74
Prieto, Daniel B.:
    Testimony....................................................    52
    Prepared statement...........................................   113
Simon, Steven N.:
    Testimony....................................................    48
    Prepared statement...........................................   106

                                APPENDIX

Responses to post-hearing questions for the Record from:
    Mr. Chertoff.................................................   130
    Mr. Baca.....................................................   202
    Dr. Falkenrath...............................................   208
    Mr. Simon....................................................   212
    Mr. Prieto...................................................   216


                  HOMELAND SECURITY: THE NEXT 5 YEARS

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Bennett, 
Domenici, Warner, Lieberman, Levin, Carper, Dayton, Lautenberg, 
and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good morning. We have a very full agenda 
today with many distinguished witnesses, so I am going to ask 
all of us to abbreviate our opening statements because we have 
a noon vote.
    As the Nation remembers the shock and loss of the attacks 
on our country 5 years ago, the Committee this morning will 
look ahead to assess the homeland security challenges the next 
5 years will bring. Our expert witnesses, from the very top of 
the Department of Homeland Security to the front lines, will 
provide valuable insight into these challenges.
    The morning of September 11, 2001, was one of uncommon 
brilliance here in the United States. In the blink of an eye, 
it was transformed into one of unthinkable horror. Two thousand 
nine hundred ninety-six innocent men, women, and children 
perished. Two of our major cities were under assault, two 
centers of our economic and military power were in flames, as 
was a field in Pennsylvania. To many, it seemed that a new kind 
of war had begun.
    If we had had the discussion that we are having today 5 
years before September 11, 2001, it would have been clear that 
those attacks were not the opening salvo of a new war, but the 
foreseeable escalation of a war that had long been underway. 
Nineteen ninety-six was the year that Ramzi Yousef, while 
awaiting trial for the 1993 World Trade Center bombing, was 
convicted of a conspiracy to plant bombs on a number of U.S. 
airliners. Nineteen ninety-six was the year of the truck bomb 
attack on Khobar Towers, an attack that specifically targeted 
U.S. military personnel. And, 1996 was the year that Osama bin 
Laden relocated from Sudan to Afghanistan and declared war on 
the United States. The terrorist strategy was evolving to 
direct massive attacks on high-profile American targets, but we 
failed to see it. We failed to perceive that these seemingly 
isolated events were, in fact, tied together.
    That was the failure which the 9/11 Commission referred to 
as a ``failure of imagination.'' How different things might be 
today, 5 years after September 11, 2001, if our imagination had 
been fully engaged 5 years before.
    The fundamental obligation of government is to protect its 
citizens. Today, we will explore a number of questions about 
how government can better protect its citizens. To answer those 
questions, we must first seek to identify the threats we face.
    Terrorism constantly evolves. As the devastating attacks 
around the world prove, terrorists will strike wherever 
opportunity allows and wherever innocent people are the most 
vulnerable. The terrorists' resourcefulness, cunning, and 
patience are exceeded only by their cruelty.
    The recent arrests in Canada and Miami, the attacks on the 
London subway last year, and the thwarted airliner plot in 
Britain have made clear that terrorism masterminds no longer 
have to rely upon operatives imported from abroad to infiltrate 
target nations and carry out attacks. The emerging threat 
appears to be from ``homegrown'' terrorists, much harder to 
detect and not deterred by increased security at our borders.
    I am particularly concerned by the extent to which this 
infection is spread within our State and Federal prisons. The 
Committee will hold a hearing on prison radicalization later 
this month. But we know from cases both abroad and here in the 
United States, with Kevin James, an American now awaiting trial 
who founded an organization based upon his radical 
interpretation of Islam while in prison in California, that the 
new face of terrorism may be born and raised right here in 
America.
    As the terrorist tactics evolve, the overall objective 
remains the same--to cause maximum loss of innocent lives, to 
damage our economy, and to defeat our resolve. As they adapt to 
our strengthened defenses, terrorists continue to pursue ever 
more spectacular and devastating attacks.
    In addition to identifying the most likely threats that we 
face, we must constantly assess and improve our efforts to 
counter them.
    Our efforts during the past 5 years have been substantial. 
We have closed the gap between law enforcement and intelligence 
that the terrorists exploited on September 11. We have created 
the Department of Homeland Security. We have made investments 
in training and equipping our first responders. We have 
strengthened our borders with additional personnel and improved 
technology. We have brought about the most comprehensive 
restructuring of our intelligence community in more than a half 
century.
    These efforts, though, do not describe a task accomplished 
but one underway. Each remains a work in progress, and the 
emerging threats compel us to ask the hard questions about how 
well we have done in the past and whether we are prepared for 
the future.
    Among the questions that I intend to explore today are:
    How can we confront the challenge of homegrown terrorists? 
What resources do State and local law enforcement need to meet 
it? How can we work with the American Muslim community to 
prevent the radicalization of our own citizens?
    What are our greatest vulnerabilities to a chemical, 
biological, or nuclear attack, and how can they be mitigated?
    How can we continue to improve the effectiveness of 
intelligence-gathering capabilities against terrorists while 
protecting the civil liberties of the American people?
    How can we accelerate the development of a common culture 
at DHS and help DHS work more effectively with its State and 
local counterparts in detecting, preventing, and responding to 
acts of terrorism?
    What is the role of the private sector--the business 
community, health, education, and other institutions, as well 
as the public--in strengthening our defenses against terrorism?
    Have we neglected the security of other forms of mass 
transportation in our focus on aviation security?
    How can we use our technological edge more effectively? 
Should interoperable communications be a national priority? 
What other technologies can we better deploy to protect against 
diverse targets?
    From the perspective of the past and present, we must 
imagine the future. September 11, 2001, was a day of profound 
loss, but it was also a day of inspiring courage. The first 
responders and ordinary citizens who rushed into the Twin 
Towers and the Pentagon to save others, the brave souls on 
Flight 93 who gave their lives so that others might live, 
remind us of the greatest asset we bring to bear against this 
challenge--the spirit of the American people.
    Chairman Collins. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you very much, Madam Chairman. 
Welcome to you, Secretary Chertoff.
    Madam Chairman, I am grateful to you for calling this 
hearing to discuss the state of our homeland security 5 years 
after Islamic terrorists murdered 3,000 innocent Americans and 
shocked the rest of us out of our false post-Cold-War sense of 
security. Yesterday was a day of remembrance and requiem. Today 
we quite properly ask: Where do we want to be in homeland 
security 5 years from today? What can we say, if I may 
personalize it, to the parents of America about what we will do 
in the next 5 years together to be able to guarantee that their 
children's upbringing and lives will be as secure as theirs 
were prior to September 11?
    September 11, 2001, like Pearl Harbor, was a tragedy of 
such enormity that it began a new era in which we understand 
that we are at war with a different kind of enemy and that our 
country, led by the Federal Government, must pull together and 
do better at fulfilling our constitutional responsibility to 
provide for the common defense against this unconventional and 
unprecedented threat. The threat of a terrorist attack at home 
on Americans is as real today as it was 5 years ago. The foiled 
plot to explode airliners heading to the United States from the 
United Kingdom is the most recent and publicly acknowledged 
example.
    But let me say at the outset that just as the threat of a 
terrorist attack is as real today at home as it was 5 years 
ago, we together can say to the American people that they are 
safer than they were on September 11, 2001, although, as we all 
acknowledge, they are not yet as safe as we want them to be.
    We have every reason, as we look back at these 5 years, to 
thank God and to thank all who work each day to protect our 
homeland security that America and Americans have not been 
attacked at home since September 11, 2001. We are thankful that 
a number of terrorist plots have been disrupted through 
increased vigilance at home and cooperative work with our 
allies abroad. And as Chairman Collins has indicated, since 
September 11, we have made historic organizational changes in 
our government to shore up our homeland defenses. These include 
the reorganization of our vast and far-flung security and 
emergency response agencies into the Department of Homeland 
Security, the creation of the 9/11 Commission, the enactment of 
its bold proposals for reform and greater security, and the 
establishment of the Northern Command to focus the Department 
of Defense on homeland as well as international security.
    The point of these changes has been to focus the Federal 
Government's attention on terrorism 24 hours a day, 7 days a 
week with resolve, coordination, and strong leadership to bring 
purpose and effectiveness to the protection of our homeland. As 
I have said, we are clearly safer today because of all that we 
have done together, although there are clearly weak links 
remaining that we must deal with together.
    I know that along the way there have been misgivings and 
some soul searching about the Department of Homeland Security, 
but I do not hear any credible voice saying that we erred in 
creating the Department of Homeland Security. So if the 
Department has not yet fully lived up to all that we in 
Congress hoped it would be, let us resolve today, as we look 
forward to the next 5 years, to work together to make it so.
    Let me say very briefly that the first great challenge that 
the Department has faced is to bring itself together. We gave 
the Department an enormous task to bring together 180,000 
Federal employees from a large number of agencies with 
different cultures and different directions. I quote Warren 
Bennis here, adviser to four Presidents, who said that we need 
``the capacity to translate vision into reality.'' And that is 
the work of leadership, and it has been a challenge, but I 
believe progress has been made in the time that the Department 
has existed.
    The failure of leadership we saw, without belaboring, 
acutely and tragically in the run-up and aftermath to Hurricane 
Katrina. Mr. Secretary, as you know, the pain and devastation 
that Hurricane Katrina caused and is still causing would be 
even worse if a weapon of mass destruction, a nuclear weapon, 
were to explode in a crowded city, if terrorists were to spray 
a mall with a deadly biological agent, or if a naturally 
occurring virus spread to the level of a pandemic. We are 
looking to you for leadership on these threats. I know that you 
have acted to apply some of the painful lessons learned in 
Hurricane Katrina. You know that we on this Committee have 
tried to do the same through legislative work. The fact is that 
there is more work to be done.
    Second, I continue to believe that we are underfunding some 
of the critical homeland security needs, particularly our first 
responders.
    Mr. Secretary, today I look forward to hearing from you, to 
use Bennis' words, your vision of where this Department is 
going, but also what you intend to do to translate that vision 
into reality and into action. I also welcome and look forward 
to the views of the expert witnesses who will follow.
    The security of the American people is the highest priority 
of our government. The plain fact is, without security, there 
cannot and will not be the life, liberty, and pursuit of 
happiness that our government was formed to secure. So we have 
got to get this right, and we have got to get it right 
together.
    And I close with a thank you to Chairman Collins and the 
other Members of the Committee because, as we look back over 
the last 5 years since September 11, 2001, in a capital city, 
which has become all too partisan, reflexively, on the question 
of homeland security--and there have been moments where this 
has not been totally true, but on balance, as we look back, 
this Committee has acted with a real sense of unity that goes 
well beyond partisanship for the national interest and for 
homeland security. And the legislation that we have reported 
out, that has been adopted by Congress, that has been signed by 
the President, and that I believe today makes the American 
people safer than they would otherwise be is a testament, Madam 
Chairman, to your leadership and to the commitment of all 
Members of the Committee to forget party labels and work 
together as Americans to secure our future against a brutal and 
inhumane enemy.
    I thank the Chairman.
    Senator Collins. Thank you, Senator.
    Senator Domenici has asked to give his statement next 
because he has to leave for another committee that he is 
chairing.
    Senator Domenici.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Let me thank you so much and say to the 
other Members, I will take little time. I have to chair the 
Energy and Natural Resources Committee hearing wherein we have 
the company involved with the Alaskan spill. That is the issue 
before that committee, and I am chairing it, so I would ask 
that my statement be made a part of the record, Madam Chairman.
    Chairman Collins. Without objection, all statements will 
be.
    Senator Domenici. I would just say to the Secretary, I 
commend you for the work you are doing, and my observation as 
one who works here on the Committee and observes from the 
outside is that things are beginning to gel in the way you 
would like to see them. It is a very difficult job that you 
have taken on, and I know it is not always successful day by 
day. But I want you to know that I always thought you had the 
potential to be a great leader in this job. And I want to 
continue to give you the opportunity to prove what you can do.
    I also look forward to seeing you more and more on the 
science and research part of your endeavor because that is 
absolutely paramount. Some things are happening with our 
National Laboratories that seem to me to bode well for our 
future and send some terribly tough signals to our opposition 
that we are up to finding out what they are doing and we are 
doing something about it. For this I thank you and congratulate 
you.
    I think I will see you in my State at a dedication of an 
R&D facility, which does make me think very highly about your 
capabilities in the future. Thank you.
    Thank you to all of the Senators.
    [The prepared statement of Senator Domenici follows:]

                 PREPARED STATEMENT OF SENATOR DOMENICI

    Madam Chairman, thank you for holding this hearing to discuss the 
Department of Homeland Security's future. Thank you also, Secretary 
Chertoff, for spending time with us today to discuss the future of 
homeland security.
    I want to start by thanking you for taking on the difficult task of 
overseeing the Department of Homeland Security. Your Department is 
young and is tasked with the difficult job of securing our Nation. I 
appreciate your service to America, I have enjoyed working with you 
over the past couple of years, and I look forward to working with you 
in the future.
    It is appropriate that we meet today to discuss homeland security 
since yesterday was the fifth anniversary of September 11, 2001. That 
was a horrific day, and the images and shock are still with us. But I 
believe that since then, we have made significant progress in the 
Global War on Terror and in our efforts to secure America.
    I look forward to hearing about where we have come since 
establishing the Department of Homeland Security in 2002 and where we 
are going in the coming years. I believe our future will include new 
research and development efforts; collaboration with universities, 
industry and national labs; secure borders and ports of entry; and 
state-of-the-art security technologies. This isn't an exhaustive list 
of our homeland security needs, and I look forward to hearing from our 
witnesses on the future of homeland security.
    Thank you, Madam Chairman.

    Senator Collins. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman, and thank you for 
calling this hearing and for the way that you and Senator 
Lieberman have managed to run this Committee on such a 
wonderfully bipartisan and effective basis.
    Immediately following the September 11 attacks, America 
came together as one Nation with one purpose: Protecting our 
country from those who would do us harm. Since that time, we 
have made important progress, such as hardening airplane 
cockpits and federalizing aviation security. Yet 5 years later, 
there are still gaps in our homeland security system that need 
to be closed. The focus of this hearing is to look forward and 
to ask what still needs to be done.
    First, if we are serious about homeland security, we need 
to adequately fund it. Year after year, we have seen 
significant cuts to our vital first responder grant programs. 
One of the areas where we have a significant shortfall is in 
the area of interoperable communications equipment. In the 
Senate, we have voted to establish demonstration projects for 
interoperable communications along Northern and Southern 
borders, but those projects have been dropped in conference. We 
still do not have a dedicated source of funding for 
interoperable communications equipment within the Department of 
Homeland Security, and presumably that means that the 
Administration does not believe that interoperable 
communications are important enough to deserve dedicated 
funding.
    Another major shortfall is in the area of reducing the 
threat of proliferation of fissile materials. The 9/11 
Commission found that the ``greatest danger of another 
catastrophic attack in the United States will materialize if 
the world's most dangerous terrorists acquire the world's most 
dangerous weapons.'' The report went on to state that al-Qaeda 
has tried to acquire or make weapons of mass destruction for at 
least 10 years and that there is no doubt that the United 
States would be a prime target. Preventing the proliferation of 
these weapons warrants a maximum effort by strengthening 
counterproliferation efforts, expanding the Proliferation 
Security Initiative, and supporting the Cooperative Threat 
Reduction Program.
    In the December 2005 follow-up report card, the 9/11 
Commission gave the Administration a grade of D on this 
recommendation, saying that, ``Countering the greatest threat 
to America's security is still not the top national security 
priority of the President and the Congress.''
    We also have great needs, I believe, particular needs in 
the area of developing a consolidated watchlist of persons that 
are suspected of terrorism, where terrorists are identified and 
stopped from entering into the country and moving around our 
country. Five years after the September 11 attack, we still 
have a long way to go, according to the Government 
Accountability Office, in compiling a watchlist that is 
complete, accurate, and available to law enforcement.
    I want to thank Secretary Chertoff for joining us today 
and, again, thank you, Madam Chairman, and our Ranking Member, 
Senator Lieberman. And I hope we can continue to all work 
together to accomplish these important objectives.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. I agree with 
your comment and that of the Ranking Member that we are safer 
today, but we do live in a much more dangerous world. I just 
want to thank you for this hearing, looking forward 5 years. 
All too often in the Senate, we have focused on yesterday, 
today, and if we are lucky, maybe tomorrow. This is important 
enough to look down to the future.
    A principal responsibility of government, Madam Chairman, 
as you noted, is protecting the citizens and providing for the 
national security. And in this post-September 11 world, Mr. 
Secretary, that is homeland security, your responsibility, 
which is right at the very center. In the past, we suffered 
from a failure of imagination. Today we have to worry about the 
failure to deal with the unimaginable. We have to imagine the 
unimaginable and then figure out a way to deal with it, and 
that is an extraordinary challenge, and the challenges are 
broad--border security, port security, chemical security, just 
to name a few.
    We also must rebuild the confidence of the Department of 
Homeland Security and its ability to respond to disasters both 
natural and manmade. We cannot ignore that and must ensure that 
bureaucracy and red tape don't hinder the ability to integrate 
new technologies. There is great hope with new technologies. 
Senator Domenici talked about that. It is also a key to 
success.
    Finally, we need to remember the lessons of September 11, 
2001, and the decade that preceded it. As the Chairman has 
noted, we cannot rest, we cannot let our guard down, and we 
cannot relent in fighting this battle that history will reveal 
as the battle of our lifetime. And I am confident that with 
strong leadership and a bipartisan effort we will succeed.
    Thank you, Madam Chairman, and I would ask that my full 
statement be entered into the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Coleman follows:]

                 PREPARED STATEMENT OF SENATOR COLEMAN

    I want to thank our distinguished Chairman and Ranking Member for 
holding this important hearing.
    We have the opportunity today to make an assessment of where we 
are, and equally important, where we are going in terms of homeland 
security over the next 5 years. The facts are that today America is 
safer than it was on September 11, 2001. It is a major accomplishment 
that there have not been any successful terrorist attacks on American 
soil in 5 years and this is a testament to the great lengths we have 
gone to protect our citizens both at home and abroad. It is also a 
testament to the strength, vigilance and awareness of the American 
people.
    Additionally, the creation of the Department of Homeland Security 
and the revamping of our intelligence community operations have 
institutionalized and improved the practice of defending our Nation. As 
a result, 15 major terrorist plots against America have been thwarted--
and those are just the ones that have been disclosed. Countless more 
undisclosed plots are likely to have been thwarted as well. However, we 
face an enemy that is constantly adapting and changing and that only 
has to be right once where we have to get it right 100 percent of the 
time.
    With this in mind, a strategic vision for the future must have some 
built-in flexibility so that we have the ability to change as our 
enemies do. There are certainly many challenges that lie ahead 
including border security, port security and chemical security, just to 
name a few. We must also rebuild the confidence of the American people 
in the Department of Homeland Security's ability to respond to 
disasters both natural and man-made. Ensuring that bureaucracy and red 
tape do not hinder the Department's ability to integrate new 
technologies and ideas to address these issues will be a key to future 
success. Finally, we need to remember the lessons of September 11 and 
the decade that preceded it. We cannot rest. We cannot let our guard 
down. And we cannot relent in fighting this battle that history will 
reveal as the battle of our lifetime.
    I look forward to hearing the testimony from our witnesses today 
and again want to thank the Chairman and Ranking Member for their 
leadership on this issue.

    Senator Collins. Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Madam Chairman.
    Mr. Secretary, when Minnesotans ask me, as they often do, 
whether we are safer since September 11, I reply that we are 
because of the constant vigilance of yourself and thousands of 
other dedicated men and women in your agency and our Armed 
Services, our intelligence agencies, and so many others. And I 
salute you and all of them for your dedicated efforts.
    That being said, we must continually ask ourselves what can 
we do better, and in August, just last month, I toured parts of 
our Southern border with Mexico in Texas, New Mexico, Arizona, 
and our Northern border with Canada along northern Minnesota. 
On our Southern border, I met with many experienced and 
sophisticated Federal agencies who, frankly, should be heard by 
this Committee and by Congress regarding what is effective and 
what is not for our border security. However, my eyewitness 
experience supports Senator Lieberman's statement that we are 
underfunding our border security efforts.
    For example, in El Paso, Texas, the day before my early 
morning visit that one facility apprehended and detained 269 
people attempting to illegally enter our country. There is a 
fence, which is one of the important barriers to that illegal 
entry, yet still within the city limits that fence inexplicably 
just stops. The reason, I was told, is because the funding had 
run out.
    Along our Northern border, the Federal homeland security 
presence is far more limited, and in long stretches of that 
5,525-mile border, border security is really non-existent. 
Despite increased funding by Congress and a mandate to increase 
the number of Northern border agents during the past 2 years, 
that number of border control agents has reportedly declined 
from 996 to 950. At any one time, only 250 agents are actively 
guarding our Northern border, and local law enforcement 
officials, whose first responder funding in Minnesota has been 
cut to only 40 percent of what it was a year ago, tell me that 
the Federal presence, while the people individually are very 
dedicated, is simply not sufficient to meet the demands. The 
illegal trafficking of people, of narcotics, of, God forbid, 
terrorists, while not as strong a likelihood as along our 
Southern border, and certainly the volume of what they call 
``economic illegal immigration,'' those coming across the 
country for job purposes, is far less, still the threat is very 
real. And I would commend to you, as others have said, the need 
to increase that Northern border security.
    I would ask respectfully that you and the President--and I 
have written the President, asking for your support of an 
amendment which I had introduced, which was adopted by the 
Senate, which would increase the funding by $44 million for 
Northern border security agents, increase the number by 236, 
which would be a 24-percent increase. That is in the fiscal 
year 2007 Senate appropriations bill that is going to 
conference. I would again respectfully ask for your support and 
that of the Administration. That would be an important first 
step to improving our Northern border security.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you very much, Madam Chairman. I will 
put my statement into the record, but I do want to join in a 
most sincere way in commending you and Senator Lieberman for 
the strong leadership that you have given this Committee on a 
most critical issue. I do not know of anything more critical 
than our own homeland security. Both of you are members of the 
Armed Services Committee, so you bring that perspective to bear 
on this.
    I also want to commend the President for the manner in 
which he led the Nation yesterday in, I think, very respectful 
ceremonies honoring those who lost their lives and reminding 
America about the enemy we face today is unlike any enemy that 
we have ever faced in the history of this Nation in terms of 
the breadth and the depth and the blind conviction that they 
have to bring destruction to those people in the free nations 
of the world, and most particularly, I suppose, us.
    But I would say also, Secretary Chertoff, you have shown 
strong leadership. You have weathered the storms, and your 
strength of leadership seems to grow daily. And I commend you 
for the manner in which you found time during the summer period 
to travel extensively across this Nation, indeed to my State. 
And I watched you firsthand dealing with those first 
responders, be they policemen or firemen or other people in the 
communities, and struggle with the tough questions put down at 
the grass-roots level. You had the answers. You gave the 
assurances. But you were realistic and honest in your approach 
about how funds are not unlimited, but you are doing the best 
you can to distribute them. So carry on.
    But I would come back to a caution by my good friend, 
Senator Levin. Both of us are concerned about the progress made 
in establishing more robust interoperability of communications, 
and I would hope in your remarks today you would address that.
    I thank the Chairman.
    [The prepared statement of Senator Warner follows:]
                  PREPARED STATEMENT OF SENATOR WARNER
    Madam Chairman, thank you for calling this hearing today and I wish 
to thank our witnesses for their efforts over the past 5 years to help 
make our Nation a more secure place. Much has been done to date at the 
local, State, and Federal levels. The formation of the Department of 
Homeland Security combined dozens of Federal agencies; created new 
agencies and directorates; and established a comprehensive Federal 
mission for the new paradigm of security risks our Nation now faces. 
The 185,000 public servants of DHS are dedicated to their mission to 
protect this country, its people, and its ideals from those who mean to 
do harm.
    We have taken significant steps in critical infrastructure 
protection; enhanced transportation security on land, sea, and air; 
strengthened security at the Nation's borders and ports; reformed our 
intelligence capabilities; and established a stronger coordination of 
effort among the various levels of government.
    But perhaps the single most important change in this country over 
the past 5 years is one that each individual American has experienced 
in his or her heart and mind. It is simply the realization that we are 
not safe from those who mean to do us harm and that we can never again 
rest from the charge to protect our home. Today's enemy is different 
than those of the past. No longer are we dealing with actual 
governments as the primary threat--we must now defend our own cities 
from within.
    I joined this Committee in the 109th Congress because I fervently 
believe that this is a critical time in American history not unlike 
when the branches of the military were combined into one Department of 
Defense in the 1940's. We continue to build the Department of Homeland 
Security to lead efforts to protect the Nation and under the leadership 
of former Secretary Ridge and now Secretary Chertoff we are in good 
hands.
    Five years ago I said that ``our people have suffered in a single 
day our greatest tragedy--yet history will show this to be America's 
finest hour.'' I look forward to hearing from our witnesses today and 
continuing the work before this Committee to enhance the safety and 
security of our entire Nation.

    Senator Collins. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman.
    First of all, I would like to say this: The question I am 
constantly asked when I am at home in Ohio is, ``With such 
partisanship in Washington, how can Congress accomplish 
anything?'' And I point to this Committee and several other 
committees where bipartisanship is well and alive. And I 
commend you and Senator Lieberman for the terrific leadership 
that you have provided to this Committee. The American people 
should be assured that we are working together on the very 
important homeland security challenges that face our Nation.
    Second, yesterday, I think standing on the steps of the 
Capitol in memory of September 11, 2001, vividly reminded me of 
the serious threats we are facing in the global war on terror, 
and I think most people thank God that we have not had any 
terrorist event here in this country for the last 5 years.
    I am pleased also that the President has finally leveled 
with the American people and indicated that we are at war. 
Osama bin Laden has declared war on us. Our freedom and way of 
life is under attack by Islamic extremists who have distorted 
the Islamic faith and launched jihad against the United States 
and anyone who shares our values. And the American people 
should understand that this is the situation. I sometimes refer 
to it as the ``Fourth World War.'' In other words, this 
struggle is not something that is going to be over by snapping 
our fingers. It is going to be with us now for a long time. I 
would hope that maybe my grandchildren will have this off their 
back, but it is going to take a lot of hard work.
    Our success in the war on terror has much to do with the 
Homeland Security Department, which has been in existence now 
for over 3 years. I think people should understand that it is 
the most formidable management challenge ever undertaken in the 
United States of America: Merging 180,000 people and 22 
disparate departments and programs, and it is not going to be a 
lay-up shot to integrate this new Department. And it is not 
going to be fully accomplished, Secretary Chertoff, during your 
term. The management challenges will continue for quite some 
time, and it will take significant effort and focus to ensure 
that the Department becomes all that we want it to be.
    We must also understand that we cannot guard against every 
security threat imaginable. We need to recognize that we have 
astronomical national debt, and it is the highest percentage of 
our GDP in a long time. We are neglecting the nondefense 
discretionary part of our Federal budget. We have to look at 
the big picture and prioritize based on our limited fiscal 
resources. I don't know how we can continue overspending in 
this country.
    From a fiscal point of view, we simply cannot afford to 
accomplish every objective Congress is seeking to achieve. We 
need more budgetary resources, perhaps even a temporary 
increase in our taxes so that we can afford to address our 
enormous national debt, improve our homeland security 
capabilities, and also continue fighting the wars in 
Afghanistan and Iraq. Secretary Chertoff, constantly Congress 
is telling you, do this, do that. You only have so much money, 
and we need to consider the big picture, the whole budgetary 
perspective, and better prioritize our homeland security 
spending according to risk.
    Secretary Chertoff, today I am also hoping that we can hear 
from you about your strategic plan for the Department. Where 
are you now? Where are you going? How long is it going to take? 
And how can we help you to better do the job that we have asked 
you to do?
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH
 
   Yesterday, our Nation observed the fifth anniversary of the tragic 
and violent terrorist attacks of September 11, 2001. The brutal images 
of September 11 will forever be burned into the minds of the American 
people. My own memories of visiting the Pentagon and being at Ground 
Zero shortly after the attacks will never fade.
    Each anniversary of September 11 renews our national resolve to 
fight the War on Terrorism at home and abroad. The American public 
should be reassured that our Nation is undoubtedly safer, but we must 
remain vigilant, because Osama bin Laden has declared war on us. Our 
freedom and way of life is under attack by Islamic extremists who have 
hijacked the Islamic faith and launched a jihad against the United 
States, Israel, and anyone who shares our values.
    Madam Chairman, thank you for holding this important hearing today 
to evaluate the Federal Government's progress in securing the American 
homeland against future attacks. Five years after September 11, and 
more than 3 years after the creation of the Department of Homeland 
Security, it is appropriate for this Committee to take stock of our 
national homeland security policy and evaluate where we are and where 
we need to be.
    Integral to this discussion is a review of how the Department of 
Homeland Security is coming together as a cohesive entity. As my 
colleagues know, the creation of DHS in 2003 merged 180,000 employees 
from 22 disparate Federal agencies and represented the single largest 
restructuring of the Federal Government since the creation of the 
Department of Defense in 1947.
    Building stronger management capabilities is vital to the success 
of the Department. In order to effectively accomplish its complex 
mission of securing the Nation from terrorism and natural hazards, DHS 
must have an effective management structure with experienced leaders 
who are capable of integrating the many separate departmental 
components and ensuring effective operations and planning.
    I hope today's hearing will also include a thoughtful examination 
of ways we can improve our risk management capabilities. We all agree 
that it is imperative to secure our homeland against terrorism and 
strengthen our response capabilities, but we must also acknowledge that 
this country has finite budgetary resources.
    It is simply not possible for us to guard against every theat--and 
frankly, if we tried to, we would bankrupt our Nation in the process. 
As our national homeland security policy matures, we have to use our 
common sense and begin to prioritize by allocating our limited 
resources based upon risk assessments.
    Secretary Chertoff, thank you for being here and for your service 
to our Nation. I look forward to your testimony regarding the progress 
DHS has made and what I hope will be a candid discussion of the 
challenges the Department continues to face. Thank you, Madam Chairman.

    Chairman Collins. Thank you. Senator Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Madam Chairman.
    The war with terrorists did not begin on September 11, 
2001. It was going well before that, just as the Second World 
War did not begin on December 7, 1941. Those were the two dates 
on which Americans became aware of the fact that war was going 
on in the world around them and the two dates on which it came 
home to Americans in a very terrible and terrifying kind of 
way.
    During and after the Second World War, we reorganized our 
resources and our government to deal with the threat that we 
discovered, and we are doing the same thing now, reorganizing 
our government to deal with the threat that we have discovered. 
It was not easy after December 7, 1941, and it has not been 
easy after September 11, 2001, but it is a task that we must be 
about. And, Madam Chairman, you and Senator Lieberman have led 
the way in this Committee.
    Secretary Chertoff, you have the burden of presiding over 
one of the most difficult parts of this reorganization around 
the new realities in the world. You are handling it in a very 
capable fashion, and we appreciate your service. We appreciate 
your dedication to this task and look forward to hearing what 
you have to say.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. Mr. Secretary, good 
morning.
    I want to start off by thanking Madam Chairman and our 
Ranking Member for holding this hearing this morning. It is 
certainly a timely one.
    Five years ago yesterday, as we all know, the prevention of 
future terrorist attacks like the one that occurred for all 
intents and purposes became the Federal Government's, our 
government's top priority. And it became a top priority for 
State and local governments like my own State of Delaware. And 
as we reflected yesterday on the tragedy that struck us 5 years 
ago, I think it is good that we are also taking the time here 
today to examine the progress that we have made and, in some 
cases, the lack of progress that we have made since that tragic 
day occurred.
    There has been progress in a number of areas. As I travel 
in airplanes, I am reminded, especially coming back from 
Manchester, England, a couple of weeks ago, of our ability to 
respond quickly and to try to tamp down threats that would harm 
many people at once.
    As I visit nuclear power plants--and I have visited several 
around the country--I am reminded I think we are doing a better 
job there in making them more secure.
    As we look at our ports, I think we have done some good. I 
think we can do more in the legislation that we take up today, 
that our Chairman and Ranking Member and Senator Murray have 
worked a whole lot on, but there is a good deal more that we 
can do there. There is a good deal more that we can do with 
respect to rail and transit security, and we have an 
opportunity to consider that in the context of the port 
security bill.
    This Committee has worked long and hard on trying to make 
chemical plants more secure, and I do not know that we will 
have a chance to take that bill up this week, but we need to 
get the bill reported out of Committee almost unanimously and 
get it before the full Senate.
    I look forward to hearing from you, Mr. Chertoff--I always 
do, Mr. Secretary--and from our other witnesses today about the 
successes of the last 5 years but, more importantly, about the 
work that you and your Department need to do and what we need 
to do to support those efforts, and hopefully to improve them.
    For a variety of reasons, whether it be the war in Iraq or 
the continuing standoff between Israel and the Palestinians or 
any number of other grievances, the number of those who wish to 
do us harm is likely growing, and it is important that we get 
this right.
    Thank you.
    Chairman Collins. Thank you.
    We are now very pleased to welcome our first witness today, 
the Secretary of the Department of Homeland Security, Michael 
Chertoff.

    TESTIMONY OF HON. MICHAEL CHERTOFF,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Chairman Collins, Ranking Member 
Lieberman, Members of the Committee, it is a real pleasure for 
me to appear before you today, the day after the fifth 
anniversary of September 11, 2001, to talk about where we have 
come over the last 5 years and, perhaps even more important, 
what our vision is and our strategy is for the next 5 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Chertoff appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    Every time we have a ceremony recalling the events of 
September 11, 2001, I am reminded of some new way in which it 
touched each of us, not only in our professional capacities, 
but in our personal capacities.
    Yesterday, as part of my commemoration of September 11, I 
was in Bayonne, New Jersey, and present at the unveiling of the 
sculpture given by the Russian people to commemorate the event. 
I was with Senator Lautenberg from the Committee and former 
President Clinton and a number of other people. And as we laid 
the flowers down at the base of the monument at the conclusion 
of the ceremony, I found the name of a college classmate whose 
name I had never seen on the rolls of the lost of September 11. 
And it was a reminder of the fact that the pain of September 11 
continues to touch us even 5 years after the event.
    But it is also an opportunity to renew our dedication and 
our unity of purpose. I agree with what everybody here has 
said. The area of homeland security is one that stands above 
the normal division of differences that sometimes characterizes 
what goes on in our political system. It has always been a 
pleasure for me to work with this Committee because, not only 
as a group but individually, you have each afforded me wise, 
dispassionate counsel and always recall that whatever our 
disagreements, there is a far more central unity of vision that 
we all have about what we need to do. And so I am delighted to 
be able to appear at this very momentous time to recall where 
we have been and see where we are going.
    I would say there is one dynamic that is the most important 
in setting our strategy and our agenda going forward, and that 
is a recognition that we have to be realistic about what we 
expect and about what we do. We do have limits, and we do have 
choices to make, and it falls to me in my job most often to 
have to make a judgment about how to allocate priorities among 
those choices.
    Our limit is not only financial, although that is clearly a 
limit, and to understand that, one need look no further than 
bin Laden himself, who said soon after September 11 he wanted 
to bankrupt us. He understood that one tool he had in waging 
war against the United States was to drive us crazy into 
bankruptcy trying to defend ourselves against every conceivable 
threat.
    But, in addition, we have to bound ourselves with other 
limits. We do not want to break the very systems we are trying 
to protect. We do not want to destroy our way of life trying to 
save it. We do not want to undercut our economy trying to 
protect our economy. And we do not want to destroy our civil 
liberties and our freedoms in order to make ourselves safer. So 
it falls to us in all of these respects to seek balance and 
realism about what we can expect, what we promised the American 
people.
    Let me say that I have divided the task into five general 
buckets, and I will tell you very briefly--and I would ask that 
my full statement be made part of the record.
    Chairman Collins. Without objection.
    Secretary Chertoff [continuing]. Where we have gone and 
where we intend to go on each of these five buckets.
    The first of these is keeping bad people out of the 
country. This was a central recommendation of the 9/11 
Commission. The good news is we do have integrated terrorist 
watchlists which do enable us to identify the names of bad 
people who are trying to get into the country. We have also 
fully deployed our biometric US-VISIT Program, which captures 
two fingerprints from every non-American who enters the United 
States and allows us to check them against our databases. That 
has kept out a lot of bad people.
    Between our ports of entry, we have committed to doubling 
the number of Border Patrol by the end of 2008. We have 
committed to building additional fencing and additional 
tactical infrastructure. And we are within 2 weeks about to 
unroll a strategic technological initiative with respect to the 
border that will put sensors and unmanned aerial vehicles and 
other high-tech tools in place to leverage our capabilities and 
the hard work of our Border Patrol.
    We have more we can do. The great challenge, I think, for 
the next 5 years is not keeping out the known terrorist. It is 
keeping out the unknown terrorist, the unidentified terrorist. 
And we have two programs underway that will let us do that.
    The first is we need to be able to take passenger name 
record information, which is information that the airlines 
capture or travel agents capture, and we need to be able to run 
that against our databases, against telephone numbers and 
credit cards that we have already identified as connected to 
terrorist activity. As we sit here, we have the capability to 
do that. There is one restriction. The Europeans, up until 
recently, had restrained our ability to use the information we 
got from airlines flying from Europe to the United States by 
limiting the way we could apply that against our databases. We 
are now in a position where I think we will have an opportunity 
to talk to the Europeans about modifying those restrictions. 
Clearly, we need to respect the interest and privacy, but I can 
tell you from my personal experience after September 11, we 
used some of that very data to track down the connections of 
the 19 hijackers in the days immediately following September 
11. I was involved in doing that personally. And one of the 
lessons I learned was this: I would much rather track down the 
terrorists before the bombs hit than after the bombs hit. And 
we need to move forward with this.
    Second, we are going to start deploying this fall the 
capability to read 10 prints and not just two prints from 
foreigners entering the United States. The ability to go to a 
10-print system will give us a capability we have not had up to 
now, which is we can screen all of those prints against latent 
fingerprints picked up in the battlefields all over the world, 
in safe houses and off of bomb fragments. It will mean that 
once this is fully deployed, hopefully with the next couple of 
years, anybody who has ever been in a safe house or built a 
bomb is going to have to wonder whether we are going to catch 
them when they cross our border.
    The second area is screening cargo. Here again I am pleased 
to say that by the end of this year, we will have 80 percent of 
the containers that come into the United States going through 
radiation portal monitors, and by next year we are going to be 
at close to 100 percent.
    Our next vision is to take this overseas, and I know 
Senator Coleman had suggested I go to Hong Kong. I have looked 
at the process they have in place there, which is an integrated 
system for not only screening for radiation but putting 
containers through X-rays. And we are currently working very 
actively with a number of foreign ports to begin deploying a 
system like that over the next couple of years as well.
    The third area is infrastructure protection. I am pleased 
to say we have done a tremendous amount to improve aviation 
security, as underscored most recently by the events of last 
August. That includes, contrary to some misinformation that has 
been put out in the media, that we do have a unified watchlist, 
the no-fly list that captures all the people whose identities 
we know about that we want to keep off airplanes. But we also 
have more work to do with respect to other sectors of transit.
    I am pleased to say that next month, in October, I 
anticipate that the Department of Transportation and my 
Department will roll out additional and new regulatory measures 
that will strengthen our ability to control and protect 
hazardous inhalation materials that travel by rail. I can also 
say that we have done quite a bit to strengthen our screening 
of air cargo. One hundred percent of the packages that are 
presented to the airlines by individuals to be put in the cargo 
holds of passenger planes are now going to be screened through 
baggage explosive detecting equipment. And we are working with 
freight consolidators to increase the amount of screening we do 
of their freight as well as to insist that they have a trusted 
traveler program.
    The fourth bucket is information sharing. Under the 
leadership of the DNI, we have done a tremendous amount to 
improve the collection and sharing of intelligence. I agree 
with the observations made here, and I think to be made by the 
next panel, that we need now to work more closely with State 
and locals in opening up a broad channel of exchange of 
information. Ambassador McNamara, who is working for Ambassador 
Negroponte, has been working closely with my chief intelligence 
officer and the FBI to put such a model in place, and we are 
already beginning, by embedding our analysts into the field, 
working with local authorities in fusion centers from Los 
Angeles to New York, and that program I think has a great deal 
of hope and a great deal of promise in terms of our ability to 
build a degree of integration vertically that will match what 
we now have horizontally.
    Finally, let me talk a little bit about response, in 
particular, the question of interoperability. That, of course, 
was a central lesson of September 11. The good news is we 
actually now have technology that will permit first responders 
and people from different jurisdictions to talk with one 
another even though they operate radios on different 
frequencies. These devices are called ``gateways,'' and I have 
seen them operate, and they do, in fact, work. That is not to 
say that we do not want to progress to the next level of 
technology, which will be a broader ability to use 
interoperability with different kinds of data that will require 
us to make some tough decisions about how we use the next stage 
of digital communications equipment. But it also means that the 
real challenge now is a challenge of leadership. These agencies 
have to agree on common rules of the road about how they are 
going to talk to one another, what codes they are going to use 
to describe events, who is going to talk to whom, what is the 
language that is going to be used, and what are the rules of 
the road.
    This is not, frankly, a technology issue. This is an issue 
of having community leaders come to an agreement. Some 
communities have done it. We have a lot of interoperability in 
the National Capital Region. Los Angeles County has 
interoperability, and they have reached these agreements. Some 
communities have not done that yet, and we have to guide them 
in doing that, and we plan to be doing that this year.
    Let me conclude by identifying three areas where I think 
Congress can act this fall to dramatically enhance our ability 
to continue to build on the progress we have made.
    The first is in the area of chemical security. This 
Committee has done a lot of work on chemical security. It is an 
urgent issue. One of the great remaining threat vectors for 
this country is the possibility of somebody attacking our 
chemical infrastructure and creating an inhalation hazard. We 
partly regulate this now through our ability to regulate the 
ports and through the regulation that we are going to be 
putting out with respect to rail transit in the next month. But 
there remains a gap, and legislation that is currently in 
Congress that would address that gap is urgently needed. And I 
would really request that Congress act on it this month.
    Second is port security. I recognize there is legislation 
on the floor now. It would institutionalize and strengthen many 
of the measures we are currently taking. We have worked with 
this Committee on port security. We commend it for its work 
again. This would be a tremendous contribution to put into 
effect this month.
    And, finally, with respect to the area of immigration, we 
continue to believe it is important to have a comprehensive 
plan to address the issue of immigration if we are really going 
to solve the problem at the border.
    There are also some short-term things that can be done. We 
have recognized the Senate has enacted $1.8 billion in 
additional funding as part of the Department of Defense 
supplemental, which would be addressed to strengthening some of 
what we do in border enforcement. I have also urged again and 
again that Congress act to dissolve the Orantes injunction, 
which is hampering our ability to remove people from El 
Salvador based upon a court order that arises from a civil war 
that has long ended. Steps like these taking this forward would 
be of major assistance to us in accomplishing the ambitious 
but, nevertheless, achievable goals that we have set for 
ourselves.
    Chairman Collins. Thank you, Mr. Secretary, for an 
excellent statement.
    You emphasized in your statement the actions that you have 
taken or will be taking to strengthen border security, which is 
certainly a goal that I share. But since September 11, the 
majority of terrorist attacks overseas have been executed by 
homegrown terrorists. In fact, as Richard Falkenrath will point 
out on our next panel, ``Since September 11, 2001, most 
terrorists plots and attacks perpetrated worldwide have been 
conceived, planned, and executed by individuals who are part of 
the local population and who have had only limited, if any, 
transnational linkages to terrorist organizations abroad.''
    The NYPD as well as the L.A. Sheriff's Department have gone 
to great lengths to establish and deploy counterterrorism units 
in order to protect their regions against the threat of 
homegrown terrorism. How much emphasis is the Department 
placing on this emerging threat?
    Secretary Chertoff. Chairman Collins, we are putting a lot 
of emphasis on that threat. We recognize, of course, that the 
high-consequence threat--the weapon of mass destruction--is 
still largely a threat that is international in character. But, 
nevertheless, as demonstrated by what happened in London in 
2005, the homegrown threat is serious. We are doing several 
things.
    First of all, we are working with communities like New York 
and Los Angeles to help them build fusion centers. We opened 
one in Los Angeles a few months ago, and that is a way of 
integrating local intelligence gathering with our Federal 
effort so that we can have a two-way flow of information.
    The second thing we are doing is we are particularly 
focused on prisons. I have met with corrections authorities in 
New York State and California, where we have, obviously, 
significant prison populations, to make sure that our 
intelligence folks are working with their corrections folks at 
a State level as well as a Federal level to identify threats 
within the prison system, which history tells us is a fertile 
breeding ground for extreme groups. And, obviously, prisons are 
also populated by people who tend to have a willingness to 
commit acts of violence.
    The third thing is we are working hard to understand how it 
is that homegrown groups get radicalized and become 
operational. This country has a natural advantage in the way 
its society operates that has apparently made us much less 
susceptible than some countries in Western Europe. But it 
requires that we continue to pay attention to what causes 
radicalization, that we continue to embrace our Muslim co-
citizens, we continue to emphasize the importance of not 
allowing ethnic prejudice to creep into what we do, so that we 
tamp down on any tendencies in our own society that might, in 
fact, replicate what we have sadly seen overseas.
    Chairman Collins. If you talk to State and local law 
enforcement officials, over and over again they point to the 
need for interoperable communications equipment. You have 
mentioned today that they, too, need to step up to the plate 
and establish common standards, but there is another obstacle, 
and that is funding. It is very expensive to establish 
interoperable communications, and yet many of us think that 
doing so should be a national priority.
    Some of us have suggested designating 25 percent of the 
homeland security grant money for interoperable communications 
equipment. Would the Department support dedicated funding to 
achieve a nationwide goal of interoperable communications so 
that our first responders will no longer be hampered in their 
ability to communicate during a disaster? This was one of the 
lessons from the attacks on our country 5 years ago, but it is 
a lesson that we saw once again in the response to Hurricane 
Katrina when within the various parishes in New Orleans the 
equipment was not compatible.
    Secretary Chertoff. Well, we have put hundreds of millions 
of dollars into grant programs for this kind of equipment, and 
in principle, I think, making sure that our homeland security 
funds are significantly dedicated to this kind of equipment is 
worthwhile.
    But I do have to say this: Often when I push on this issue, 
what I see is the problem is we cannot get agreement about what 
equipment to buy. And perhaps the answer is we will at some 
point have to simply mandate that this is the equipment you 
must buy and you are not going to get money for anything else.
    But I would hesitate to dedicate a huge amount of money up 
front without the input of the localities themselves to make a 
determination of what they feel they need and how far they have 
come and what the remaining gaps are.
    I will say that we are planning by the end of this year to 
have done a careful study with each of the communities of 
exactly what their shortfalls are with interoperability. And 
once we have that done, we may be able to give you a much more 
specific answer about what funding needs are required.
    Chairman Collins. But hasn't the Department been working on 
common standards? It is my understanding that the Federal 
Government has been working to develop consensus-based 
equipment standards for 15 years, and now that responsibility 
is hosted in DHS. So isn't an answer to that problem for the 
Department to conclude its work and issue the consensus-based 
standards?
    Secretary Chertoff. It is, and one thing we are going to do 
is, as we look at the new digital equipment, we are--and I have 
actually mandated that we do come up with a standard about the 
specifications on the digital equipment. One thing I want to 
make sure of when we do it is that we do not unintentionally 
lock in a particular proprietary form of communication that 
gives somebody a monopoly. So we may require that a condition 
of being designated is that you become open source and you make 
the proprietary technology available to others so we can have a 
competitive system.
    So I do agree that is something we need to get done. That 
is to get to the next level. What I do want to emphasize, 
though, is as we speak at this moment, there is bridging 
technology that achieves interoperability, and that is 
available. And if something were to happen tomorrow, that is 
out there. What needs to be done is those communities that have 
not finished making their arrangements have to reach an 
agreement.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks again, 
Secretary.
    You spoke at the outset of your statement, I think 
understandably, about the fact that we have to be realistic and 
we cannot do it all. And then you listed the five buckets, some 
of which imply an intensity of threat, seriousness of threat, 
and a lot of which understandably are priorities of methods for 
combating threats.
    So I wanted to ask you, as we look forward to the next 5 
years, if you could address the question of risk in a somewhat 
different manner, which is what you believe the biggest 
security risks are that America will face here at home, and 
let's focus for a moment at first on terrorism. Obviously, we 
face the continuing threat of a natural disaster like Hurricane 
Katrina, but I am thinking about the terrorists. As you order 
the ways in which terrorists may attempt to attack us, what is 
the priority list?
    Secretary Chertoff. Risk is composed of three things: 
Threat, vulnerability, and consequence. And, frankly, I put the 
most weight on consequence because threat and vulnerability 
change, consequence rarely does.
    The high-consequence event that is the biggest risk is a 
weapon of mass destruction. A nuclear bomb, of course, is at 
the end of the scale. A biological attack, even a serious 
radiological attack, would have very powerful effects on our 
entire country.
    The good news is at least in terms of a nuclear bomb, the 
likelihood of that happening, the threat in terms of 
capability, is low at this point. On the other hand, I have no 
reason to believe that threat is going to diminish over time, 
and I do have reason to believe it is going to increase over 
time.
    Senator Lieberman. So would you put that at the top of the 
list?
    Secretary Chertoff. I would put that at the top 
particularly because we need to be making the investments now 
against the day 5 years from now when that threat does become 
more likely.
    Senator Lieberman. And the investments are in prevention or 
response?
    Secretary Chertoff. Well, they have got to be in 
everything, but I have to say with a nuclear bomb, prevention 
has to come first because there is no way a response to a 
nuclear attack is going to be anything but inadequate in terms 
of the lives lost and the damage done.
    Senator Lieberman. Right. So let me ask you to take a 
moment and now relate your five buckets to what you have stated 
is the number one terrorist concern you would have, which is a 
WMD attack, particularly a nuclear attack. How do we prevent 
it?
    Secretary Chertoff. Screening bad things out. A critical 
element of what we have to do is keep out dangerous things from 
the country, and that is why I put radioactive material at the 
top of the list.
    Now, that has to begin, as Senator Levin said, overseas. 
The President signed an agreement with President Putin during 
the G-8 to be much more aggressive in terms of our overseas 
efforts to intercept this material.
    From the homeland standpoint, eventually we want to make 
sure that even before a container is loaded into a ship, we are 
screening it for the possibility of radioactive material. We 
also, by the way, will have by the end of next year radiation 
portal monitors at each of our land ports of entry.
    Senator Lieberman. Right.
    Secretary Chertoff. So that ring around the country is step 
one.
    Step two is what we call the ``Securing the Cities 
Initiative.'' We anticipate over the next 2 years putting money 
into and deploying radiation detection systems around at least 
one major city, the city of New York, and two other cities yet 
to be selected, the idea being that we will then build on that 
to have a network of radiation detection equipment inside the 
country itself. So that is one bucket.
    Another bucket is intelligence. The DNI, Ambassador 
Negroponte, is very focused on counterproliferation. Much of 
our collection activity is aimed at determining whether there 
are people out there building the capabilities to develop 
nuclear weapons.
    Senator Lieberman. Right.
    Secretary Chertoff. So enhancing that is a second issue.
    A third issue is response, and whether it be a radiological 
bomb or it be a biological attack, we have to have the 
capability to come up with an antidote or a vaccine. And the 
good news is with respect to many of these threats, we have the 
antidote. We also need to be able to distribute it, and much of 
the planning that we see, for example, in the avian flu area is 
also a way of planning for how we would do a mass distribution 
with respect to other kinds of biological vectors.
    I can also tell you that we have deployed in a significant 
number of cities biological detection equipment which goes off 
when there is an ambient indication of a biological measure 
because that enables us to respond more quickly.
    So those are three areas in which we respond to that high-
consequence event.
    Senator Lieberman. How about the prevention of the movement 
of chemical and biological materials into the country in place 
for an attack? In other words, we are focused, understandably, 
on trying to detect the coming of a nuclear weapon. I 
understand this is different because you could put together 
chemical and biological means for an attack within the United 
States. What systems do we have to prevent that? Intelligence 
obviously is one. If we can know what is coming and break it 
before it gets here, that obviously is the best way to do it.
    Secretary Chertoff. I think the challenge with biological 
and chemical is that there is plenty of stuff inside the 
country. You do not need to bring it in.
    Senator Lieberman. Yes.
    Secretary Chertoff. And we saw in the Oklahoma City bombing 
that ammonium nitrate could be a powerful weapon.
    Now, we do regulate, particularly with respect to 
biological hazards, we do some regulation with respect to the 
way in which it is made available to the public. But there are 
some kinds of chemicals and some kinds of biological agents 
that occur in nature, and if someone had the wherewithal, they 
could simply take something that occurs on a farm, like anthrax 
on a farm or foot-and-mouth disease on a farm, and they could, 
if they had the know-how, culture it to make it weaponized.
    So there the focus has got to be--we cannot keep it out of 
the country. We have got to focus on intelligence. We have got 
to focus on rapid detection capability so that if there is an 
outbreak, we can move quickly in order to tamp it down. And 
that is an area, frankly, where our ability to distribute 
vaccines or antidotes quickly is really our principal method of 
defense.
    Senator Lieberman. OK. My time is up. So, clearly, the No. 
1 threat is a weapon of mass destruction.
    Secretary Chertoff. In terms of consequence.
    Senator Lieberman. Chemical, biological, or nuclear, in 
terms of consequences. I would like to come back, unless 
someone else asks you about it, how you rate--and I won't ask 
you for an answer now--the threat of an improvised explosive 
device here. Obviously, these are being used elsewhere around 
the world by terrorists.
    Thanks from your answer, and it guides us in prioritizing 
our own work with you to try to prevent and protect and respond 
to that number one concern that you have. Thank you.
    Chairman Collins. Thank you. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    I want to follow up on Senator Lieberman's questioning 
about the No. 1 threat being a nuclear weapon, nuclear 
material, and the ability to bring it in through cargo, through 
our ports. I think we deal with about 11 million containers 
entering the country every year, and we have had discussions--
and I appreciate your taking the personal effort, Mr. 
Secretary, to go to Hong Kong to take a look at that system.
    One of the nice things about this Committee with the 
leadership of the Chairman and the Ranking Member is I think we 
have done a pretty good job putting partisan politics aside and 
trying to figure out what is the best thing to do. And I am a 
bit concerned with the politicization of kind of the fear of 
something getting in there. The Washington Post has an 
editorial today where they talk about mandating 100 percent 
screening, and they use the phrase, ``The `inspect all 
containers' mantra is a red herring that exploits Americans' 
fears about what might slip through in order to score political 
points . . . ''
    Let me talk to you a little bit about that. The screening 
of nuclear radiation that you talk about, 100 percent, that is 
in our country, those are in our ports.
    Secretary Chertoff. Correct. And I want to be careful to 
use the word ``scanning'' because what we do is we put them 
through scanners, and that is in our ports.
    Senator Coleman. All right. But the ideal situation, of 
course, is to get them outside because clearly if a device 
comes in and it were to be in Long Beach, New York, or 
Savannah, wherever it is, New Jersey, it would have a 
devastating impact on not just people but commerce, and it 
would be very disruptive. So ideally we want to do the 
screening out, and then set up--we have our CSI, Container 
Security Initiative. We have the pilot project looking at the 
Hong Kong system. But Hong Kong, as you and I know, Mr. 
Secretary--I think it is two lanes out of 40 that does 100 
percent. And now there are proposals that say we need to do all 
cargo within 3 years or 4 years.
    Can you respond? Again, I want to push you on this really 
hard, but tell us what is it that we can do, and even on an 
accelerated pace, what can we accomplish in this area?
    Secretary Chertoff. I think, first of all, the biggest 
constraint--there are two constraints on our ability to operate 
overseas. One is, of course, there has to be enough physical 
room to put these devices in place without significantly 
slowing up the flow of the containers. And I think you are 
quite right, Senator, in pointing out that each port is going 
to be different, and their capacity to manage the throughput is 
going to depend on the nature of the port.
    The second issue, frankly, is the willingness of foreign 
governments to cooperate, which we do not control, because when 
containers go through the system that we are proposing to start 
to deploy, when they hit a red light, some of the containers 
have got to be pulled out and have got to be opened. You have 
got to inspect it. And the authority to do that lies with 
foreign governments. We work with them, but it is their 
authority that we use to open the containers.
    They rightly worry about the burden on their own customs 
officials in terms of whether they have the manpower and the 
capacity to do that. So I cannot tell you that within 3 or 4 
years we can fully deploy a system of having everything, every 
container overseas go through a dual scanning system before it 
gets on a ship because I cannot predict that foreign 
governments will agree, I cannot predict that every port is 
going to be configured in a way to allow that to happen. And I 
would hate to have Congress pass something that would suggest 
to the American people that there is a solution that is 
completely pie in the sky.
    Senator Coleman. But we can tell the American people that 
every single container--every single container--is undergoing a 
review process.
    Secretary Chertoff. That is correct. Every single container 
is screened in two ways.
    First of all, based on information that we obtain about the 
shipper, the track record, the destination, method of payment, 
and a host of other considerations, and then the high-risk 
containers are physically inspected or run through X-ray 
machines.
    Second, by the end of next year, all containers, once 
they--at least at the point they arrive at our ports, will be 
taken through radiation portal monitors before they leave the 
port. So while not a perfect defense, it is a very good 
defense.
    Senator Coleman. And I keep going back to the former mayor 
in me--and I think we have a number on this panel. There was 
not a partisan way to collect garbage, I just wanted to get it 
done. And I am not going to be satisfied--if foreign countries 
are not cooperating, then we need to do something about that. 
That is not an acceptable excuse for me. Then we need to say 
that they are going to have some consequences. But I just want 
to make sure that we do not get caught up and this become a 
political football. It is too important an issue. And we will 
push you, Mr. Secretary. We do want to see the results of the 
Hong Kong project. Clearly, one of the challenges of Hong Kong 
is that information right now is not integrated into the full 
system. So we have got a lot of data there, but it is not being 
used currently. And so the challenge first becomes to use it, 
to have it integrated into our system, and then to assure the 
American people that, yes, each and every container is being 
reviewed and that we are maximizing and pushing to the limit of 
making sure what we can physically look at without in the end 
doing what Osama bin Laden wanted to do, which is to destroy 
our economy.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    I want to talk to you about the watchlist, Mr. Secretary. 
The Terrorist Screening Center was supposed to have developed a 
system through which screening agencies could directly access 
the database, but this has yet to be completed. That is what 
the GAO says. Is that correct?
    Secretary Chertoff. I can tell you what my understanding 
is. There is a no-fly list that is compiled from individual 
databases maintained by individual agencies, and that list is 
accessible as a single list or as a single database, and that 
is what keeps people off of airplanes.
    At the border, there are a number of different databases 
because different agencies keep information for different 
purposes, but it is possible to access them all immediately 
from the port of entry so that we are capable at our ports of 
entry of screening a list within a matter of moments for 
somebody coming----
    Senator Levin. How many lists are there?
    Secretary Chertoff. I don't know if I can give you an 
answer to that. Probably somewhere between half a dozen and 10, 
depending on how you want to characterize them.
    Senator Levin. Let's say a half a dozen. Why aren't they 
integrated into one watchlist?
    Secretary Chertoff. I think two reasons. First of all, 
there is actually no reason to make them a single list, and 
there are reasons not to make them a single list. The reason we 
do not need to make it a single list is in this day and age it 
is possible to check a name against four or five lists 
simultaneously, with very little loss of time. I mean, it is 
all done in a matter of seconds.
    The downside with merging them, as opposed to integrating 
them, is that they are held for different purposes. For 
example, the FBI has lists of people who are involved with 
criminal behavior or dangerous behavior, which includes 
American citizens. But that is not really of use to the Border 
Patrol in its entirety because we cannot keep American citizens 
out of the country. They have a right to come in. And, in fact, 
privacy advocates generally argue that unnecessarily merging 
lists into one actually raises the risk to privacy.
    Senator Levin. Can a local law enforcement person who 
arrests someone who wants to see if he is on any terrorist list 
access immediately all of the lists?
    Secretary Chertoff. We have now completed phase one of 
merging IDENT and IAFIS, which are the two fingerprint-based 
systems, our system and the FBI's system, and I believe in 
Boston and some other cities, we are now deploying that kind of 
inter----
    Senator Levin. But that local law enforcement person out 
there in most jurisdictions cannot right now access, after they 
arrest somebody, all of the terrorist watchlists?
    Secretary Chertoff. I think that is right. I think they can 
get the information that is pertinent to them through one of 
two portals--either the FBI portal or through this merged 
portal that we are beginning to deploy.
    Senator Levin. So that a law enforcement person who arrests 
somebody or is suspicious of someone can, through two portals, 
punch a button, get all the information that all the agencies 
have that would make this person a suspicious character----
    Secretary Chertoff. I don't know if I can make it ``punch a 
button.'' But in whatever way they access, for example, IAFIS, 
which is the Bureau list, they can access that, and through 
this new program, we are making it available now in some areas 
because we have now begun phase one of merging these two.
    Senator Levin. So that is not yet available in most place?
    Secretary Chertoff. It is not yet fully available, correct.
    Senator Levin. All right. Do we have all the resources to 
make it available?
    Secretary Chertoff. I think the issue is not a money issue. 
I think it is a systems issue, making sure that we can deploy 
it in a way that is not going to create false positives. I 
think we are going to watch phase one, and I think we are on 
track to completing the job in short order.
    Senator Levin. Because I think when you just testified that 
we have a unified watchlist and we have an integrated 
watchlist, it makes it sound a lot more advanced than it really 
is.
    Secretary Chertoff. Well, I want to be clear. I was 
particularly being--I want to focus on, first of all, the TSA 
no-fly list because there seemed--I was reading things in the 
paper today that were suggesting that we do not have a unified 
no-fly list, and I can tell you that is incorrect.
    Senator Levin. That is not what I was referring to, though. 
Let me ask quickly because I only have a minute and a half 
left. How many of the people who were arrested in Britain had 
visas to the United States?
    Secretary Chertoff. Britain does not--under our Visa Waiver 
Program, if you are coming as a tourist, you do not need to 
have a visa to come from the United Kingdom or a couple dozen 
other countries in Europe.
    Senator Levin. So that many of those people had tickets to 
come to the United States?
    Secretary Chertoff. If they were coming--yes, they had 
tickets--well, I would not say many had tickets, and I want to 
be careful about not saying things that are going to create a 
problem for the British case. I don't think they had tickets 
yet, but I think they could have acquired tickets and would not 
have needed visas if they were coming in, allegedly coming in 
as tourists.
    Senator Levin. Now, had the British that had been following 
some of those people for a long time notified us of that fact 
so that they would not get tickets to come to the United 
States?
    Secretary Chertoff. We were made aware in timely fashion of 
the identities of the people. We would have prevented them from 
getting on planes.
    Senator Levin. From getting tickets?
    Secretary Chertoff. I don't know if we would have stopped 
them getting tickets. They would not have gotten on airplanes.
    Senator Levin. All right. So that we have checked through 
all these people and we know that we would have stopped them 
from getting on airplanes?
    Secretary Chertoff. Yes, because we would have had their 
names.
    Senator Levin. We did have their names?
    Secretary Chertoff. Correct. Well, we had the names of many 
of them. I mean, there may have been some that turned up in the 
course of the investigation once the arrests started to get 
made.
    Senator Levin. No, but I mean before that part of the 
investigation----
    Secretary Chertoff. The people that they----
    Senator Levin [continuing]. Began, we had all the names 
that the British had.
    Secretary Chertoff. Correct.
    Senator Levin. OK.
    Secretary Chertoff. Yes.
    Senator Levin. Finally, what percentage of State or local 
first responders would you estimate now have truly 
interoperable communications equipment so that they can 
communicate with State, local, or Federal agencies? Just give 
us a rough perspective.
    Secretary Chertoff. I know the 10 largest cities through 
our Rapid Command Program have what we would call command-level 
interoperability, which means that the agencies and 
jurisdictions in the region can talk to one another at the 
command level.
    I cannot estimate for you in other parts of the country 
because I think a lot of it depends on whether they have 
purchased this gateway equipment, and a lot of it, frankly, 
depends on whether they have built the rules that will allow 
them to talk to one another.
    However, by the end of this year, we will complete a study 
and a survey of the 50 States and the 75 largest urban areas 
precisely to ask them to test what their interoperability is 
and then to come back and tell us what the gaps are.
    Senator Levin. Again, I share what others have said here 
with you that this is the greatest single complaint, I believe, 
that we get from local first responders and law enforcement 
people--the shortage of interoperable equipment. And it is not 
just because they have not worked out the ground rules with 
other jurisdictions. There are many cases that I know of where 
applications have been filed for funding where those ground 
rules have been agreed upon, and yet the funding has not been 
forthcoming. So I do not think that is an adequate response to 
a lack, an obvious lack of interoperable equipment where there 
is a good reason to have interoperable equipment and the ground 
rules have been worked out. And I hope you will pay some 
additional attention to that issue.
    Secretary Chertoff. I will. And when this survey is 
completed, if it turns out, for example, that you have a 
jurisdiction where they have the ground rules and they do not 
have the equipment, we have grant funding available, which we 
will be pleased to make available to get that equipment.
    Senator Levin. Well, it is inadequate, I can assure you. 
Thank you. Thank you, Madam Chairman.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. Yesterday I had a meeting with the 
Jewish community in Cleveland, and it brought home to me 
something that I have been concerned about for a long time, and 
that is the radicalization of our own Muslim population here in 
the United States.
    I just completed a book by Gilles Kepel called ``The War 
for Muslim Minds.'' We have got to recognize that this is a 
different war than we have had before. It has a lot to do with 
the minds of individuals and how do you deal with modernity and 
how do you make sure that you do not have homegrown situations.
    What I would like to know is: What is being done on the 
Federal level to develop the infrastructure of understanding 
and human relations in communities around the United States of 
America to get people together to talk to each other so that we 
do not end up with Muslim xenophobia and folks that heretofore 
have felt integrated in a society feeling that they are not 
part of our society? Kepel in his book says that he believes 
that one of the ways that we need to be successful in Western 
nations is considering how we deal with integrating Muslims 
into our societies. In some countries it has been very 
effective, in others it has not been so good. But what is going 
on at the Federal level? Mr. Secretary, whose job is that? 
Yours? Karen Hughes'? State Department's?
    Secretary Chertoff. Well, I think it began with the 
President saying shortly after September 11 that this was not 
an attack by Muslims and that we should not allow this to draw 
us into characterizing Muslims or people from certain parts of 
the world as being anti-American, that it was an attack by a 
number of ideologues who happened to use the language of Islam.
    It is a shared responsibility in this sense: I mean, we are 
doing a lot of work, some with the academic community, trying 
to understand the psychology of radicalization and trying to 
understand why it is, for example, that there are problems in 
Western Europe that we have not yet had, some of which flow 
from the nature of the societies over there. Part of it is 
simply getting out there and interacting. I mean, I have tried 
on a number of occasions to go out to the Muslim community or 
have them come meet with me to interact with them and speak 
with them. Part of it is recruiting and encouraging Muslim 
Americans to become part of doing public service and working in 
law enforcement and working in intelligence. And we have some 
of them.
    We all recognize that people of all ethnic groups can be 
involved in criminality or terrorism, and it does not condemn 
the ethnic group. What we have got to do is continue to build 
upon those positive aspects of our society that make people----
    Senator Voinovich. Well, there is certainly a Federal 
aspect to this, but I also think the infrastructure of 
understanding and human relations is largely built at the local 
level.
    Secretary Chertoff. It is community-based.
    Senator Voinovich. It is. When I was mayor of Cleveland, we 
had significant tension between our minority community and our 
police department. So we started a dialogue to bring people 
together to talk about it; to enhance communication and build 
ties. And I am really concerned that at the national level, 
there is not any real thought being given to how to work with 
maybe the National League of Cities or the U.S. Conference of 
Mayors to try to get the cities to start to think about how to 
bring people together on this issue. How do we reach out to the 
top Muslim leaders in the United States, identify who they are, 
begin to have a real dialogue with them, and also include the 
Jewish community?
    My other concern on an international level is the 
Organization for Security and Cooperation in Europe. For 4 
years, I have been trying to get them to make anti-Semitism and 
Muslim xenophobia priorities because that is the underpinning 
of many of the tensions in communities. And I think so often 
what we are doing is preventative, to make sure something does 
not happen. But I think outreach is equally important, and how 
successful we are going to be will depend upon how well we 
start to work at integrating our American Muslim community.
    Secretary Chertoff. Well, I agree with you. Certainly 
internationally, Under Secretary Hughes is very focused on 
this. I know the President is actually focused on this. And, 
domestically, as I say, as we do this research, I think it is a 
very good idea for us to get some of the perspective we 
accumulate out to the cities and the States through the various 
organizations like the NGA and the National League of Cities 
because, I agree, the front line on understanding does lie in 
the local community.
    Senator Voinovich. Well, I would like to work with you on 
that.
    The other thing, and this is a big issue, as you know, we 
have been monitoring DHS management in my Oversight of 
Government Management Subcommittee, and I want you to know that 
I am deeply concerned about the high level of staff turnover 
and vacancies at the Department. This is a particularly serious 
problem at the senior leadership levels. The Committee has been 
aware of vacancies at FEMA. We know about that, Madam Chairman. 
But there are also continued vacancies in the Transportation 
Security Agency, Immigration and Customs Enforcement, Customs 
and Border Patrol, and the National Cybersecurity Division.
    What are you doing about filling those vacancies? Also, is 
there a long-term strategic management plan in place about what 
needs to be done in the agency? And how long is it going to 
take to get it done?
    Secretary Chertoff. Let me answer both parts of that. The 
issue with respect to turnover is twofold. It is not, by the 
way, restricted to DHS. I mean, the Bureau, the FBI, has had a 
significant amount of turnover in the counterterror area. And I 
will be blunt. It is a hard job. After 3 years, people get 
burned out. They get tired. And, frankly, there is not a lot of 
patting on the back, and that tends to drive people out of the 
agency, too.
    I wish I could hold these people--there are people--I mean, 
sometimes you want to see people go, but sometimes there are 
people you do not want to see go. But you do not have the 
ability, when people get really tired out, to look them in the 
eye and say, ``You have got to keep going.'' It is a real 
sacrifice for some of these jobs.
    We are working very hard to fill these jobs, and we have 
been successful in doing it. It is a cumbersome process. I have 
been particularly frustrated with the ability to fill the 
cybersecurity job. It is hard to compete with the private 
sector. I cannot pay nearly the amount of money you can make in 
Silicon Valley. On top of that, we have laborious and sometimes 
unpleasant background checks, requirements of financial 
divestiture that people sometimes finally say, ``I cannot be 
considered because I am going to be sacrificing the ability to 
put my kids through college.''
    So we have been very lucky in that the number of public-
spirited people of top talent who we have gotten to join the 
agency during my tenure is extraordinary. We have had people 
like Charlie Allen and Kip Hawley and George Foresman. There 
are other people I would like to consider, but it is hard to 
recruit. We are continuing to work on that.
    On the larger management issue, we do have a strategy to 
implement this kind of a strategic plan for completing the 
integration, which involves not only merging the number of IT 
systems into a single system, finishing the job of having our 
financial systems reduced in number, empowering the chiefs of 
the various business lines to have more authority over their 
counterparts in the individual components, but also bringing a 
career path into fruition that, much as DOD does, actually 
rewards you for activities that are either joint or undertaken 
with other agencies and that has an educational process for the 
senior leadership that will emphasize that, like the Capstone 
or Pinnacle program at the Defense Department.
    I have asked my Deputy actually to work on this, and I am 
envisioning he may come sit with you and give you a little bit 
more granularity about that.
    Senator Voinovich. Thank you.
    Chairman Collins. Senator Dayton.
    Senator Dayton. Thank you, Madam Chairman. I would also 
like to join with others who have complimented you and the 
Ranking Member, Senator Lieberman, for your leadership on this 
and holding this very important hearing.
    Mr. Secretary, I need to, I guess, respectfully disagree 
with what I took to be your presumption that the American 
people are not willing to pay for or we have to posit a choice 
between bankruptcy and the maximum necessary homeland security. 
I think if you posit to the American people do you want realism 
as defined by, at least in Minnesota, a 60-percent reduction in 
funding for its homeland security plan from a year ago, people 
would say, I think almost overwhelmingly, if not unanimously, 
they do not want that kind of less-than-adequate funding. And 
it is hard to assess from the Legislative Branch what is 
sufficiency in funding. That is where we really have to defer 
to you. But I worry that the Office of Management and Budget is 
defining our funding commitment to homeland security rather 
than your or rather than what the imperative is.
    Again, having witnessed firsthand the last month, both the 
Southern border effort and certainly the Northern border, I 
think it is inadequate. I think while certainly progress has 
been made, that progress is insufficient to the risks involved. 
And, again, I think the American people expect from us--not 
perfection, that is impossible, but they expect from us that we 
are going to be doing everything that is feasible as rapidly as 
feasible in order to provide the maximum optimal homeland 
security; and if we are not doing that, I think we need to be 
candid with one another, you and Congress, and then with the 
American people, why it is we are not fiscally capable of 
undertaking that kind of priority.
    Secretary Chertoff. Well, I agree with you it has to be 
optimal, but I think there are several different realities we 
have to recognize. One is you could in theory spend a limitless 
amount of money on security. People can do that in their own 
home. I mean, I could redo my house and buy five locks and buy 
steel doors and buy expensive security systems with sensors. 
There is always more you could do. We all make judgments about 
what the optimal amount is.
    But it is not just a question of spending money. We cannot 
put into effect systems that destroy our ability to operate in 
our way of life. I mean, I could give you--a perfect example is 
the issue of getting on the airplane. Some people argue we 
should ban all hand luggage, walk on with nothing in your 
hands, not even a magazine. That would clearly increase 
security. There would be a high cost to people in doing that--
not a monetary cost but a personal cost. Business travelers 
would find it very difficult. Mothers would find it difficult.
    So what we wind up doing is we wind up balancing. We wind 
up looking at what is the marginal additional benefit and what 
can we accomplish without requiring that sacrifice.
    We are going to have disagreements about that. Even those 
who are experts have disagreements. But I think the principle 
that there are limits and balance I think is when we disserve 
the American people if we don't emphasize that we are always 
facing choices.
    Senator Dayton. I respect that. I am glad you went to Hong 
Kong. I mean this sincerely. I would prefer you come to 
northern Minnesota and talk with especially the local law 
enforcement officials there and get their perception of what--I 
think the imbalance, at least as it exists up there, is 
decidedly on the side of lack of sufficiency rather than the 
excess, which I agree with you, more is never enough.
    Regarding the interoperability issue, and I am way beyond 
my limited expertise when you talk about something like 
gateways, but that is a problem, again, with the local 
officials in Minnesota. You talk about leadership. If there is 
an expertise that your agency possesses about how to define 
this--because I think it is critical, as you say, that people 
get on the same page before they are spending money to upgrade 
their equipment or buy new equipment and compound the problem 
rather than resolve it, whether there is some kind of national 
conference or State conferences that you could be part of--your 
agency be part of either convening or participating in, I 
certainly, again, would like to convene one of those in 
Minnesota because I think the local officials are starving for 
that kind of understanding, if they do not have it, if it 
exists out there, that expertise, they do not have it. And I 
think to communicate that now, as I say, before we are spending 
more money that is not going to resolve the problem or make it 
worse, it would really be imperative.
    Secretary Chertoff. Well, that is why we are doing this 
study with the States in the 75 large urban areas, precisely to 
pinpoint in a systematic way what the gaps are. And once we get 
that done by the end of the year, I think we can have a much 
more focused discussion with the States and localities about 
what it is they really need and what it is they have to do in 
order to get up to snuff.
    Senator Dayton. Well, I think the time, the urgency of that 
undertaking, if it needs to wait until the end of the year 
until the study is complete, but I hope the beginning of next 
year then your agency could provide that leadership and that 
expertise and get everybody as much as possible, at least show 
them what the page is. If they are not going to get on it, that 
is their responsibility, but at least give them that guidance.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Bennett.
    Senator Bennett. Thank you, Madam Chairman.
    Mr. Secretary, I have to say I am impressed at your 
presentation here this morning, the degree to which you have 
gotten your arms around the problems and catalogued them in a 
way that is very coherent and intelligent. And I come away from 
the hearing with a higher sense of confidence in the level of 
progress that has been made by the Department. We both 
understand it is not where it wants to be, where it needs to 
be, but frankly, in the period of your stewardship, it has 
moved farther than I might have anticipated that it would.
    Most of the concerns that I have had have been talked about 
by those who have questioned you before me, but I want to come 
back to Senator Voinovich's question and focus on one aspect, 
which you raised in your response to Senator Voinovich, and 
that is the Assistant Secretary for Cybersecurity and 
Telecommunications. You may remember that I got quite exercised 
about that and urged you to move ahead and was delighted when 
it was created. Now it has been a year since that position was 
created, and it still has not been filled.
    And I hear what you said to Senator Voinovich about the 
difficulty of filling it, but I want to share with you my own 
experience when I have been to Silicon Valley, where the first 
question I was asked was, ``Why hasn't this position been 
filled?'' And my answer was not as completely sophisticated as 
yours, but it was basically the same answer: ``Well, Federal 
salaries compared to Silicon Valley salaries are so low that 
they are having a hard time attracting somebody.'' And I was 
told, ``Senator, we will give you a list of half a dozen people 
who are willing today to give up their Silicon Valley salaries 
to come into government service on a 1-year, 2-year kind of 
mission, if you will, to try to get that thing under control.''
    I don't know if you have been to Silicon Valley. They did 
not give me the list, so I have no names to share with you. But 
have you made that kind of an effort to say, ``All right, we 
understand that this is a fairly significant financial 
sacrifice on your part, but your country needs you and give us 
2 years, step aside from your more highly paid job, step aside 
from your career long enough to sacrifice for your country,'' 
and gotten any kind of a response?
    Secretary Chertoff. I have been to Silicon Valley, Senator, 
and first of all, I want to say that I believe we will actually 
be in a position where the President will have somebody to 
nominate in the very near future. But I actually tried to do 
some of that and also reached out through people in the 
Department who have backgrounds working with people in the 
field. I want to be careful not to get specific about people in 
a way that would invade their privacy.
    I would say that it was a combination of challenges. It has 
really been probably the biggest personnel frustration I have 
had since taking this job because I have had extraordinary 
people coming to fill other jobs. This one, it has been a 
combination of not just the money, but many of the people with 
experience face conflict-of-interest issues because the 
technology they would have to pass upon would have been 
technology that they had something to do with, or they have 
divestiture issues, which I frankly--it is hard to argue to 
people--or it is one thing to give up your salary. It is 
another thing to get into a hefty divestiture, particularly if 
you are a comparatively young person. And some of them 
eventually just culturally were--took themselves out of the 
running. We had some false starts, I would say.
    I think we are at the point now where I am hopeful we will 
have this position filled in very short order, but I confess to 
you that filling this job has been really tough.
    Senator Bennett. I understand that, and it may be, Madam 
Chairman, Senator Lieberman, that Senator Voinovich with his 
interest on human capital, we consider amendments to the law 
that say for a specified period of time--that is, if you serve 
for a specific period rather than make a career, there can be a 
waiver for some of the other aspects that you have. In my 
position as Chairman of the Agriculture Subcommittee of 
Appropriations, we run into some of this same sort of thing 
with respect to the FDA because the rules are very firm that 
you cannot be an expert for the FDA if you have any connection 
with this, that, or the other pharmaceutical company. And we 
end up unable to draw on anybody who has any real expertise 
because everybody who has an expertise has someone who is 
willing to pay for it. And we take the automatic assumption 
that if someone on the outside is willing to pay for your 
expertise, you are prima facie corrupt and, therefore, cannot 
work for the government.
    Now, I do not believe that is true. This is as critical a 
position in Homeland Security, as I think Secretary Chertoff 
has made clear, as we can find, and perhaps we ought to 
consider in this area, and maybe some others, passing 
legislation that would say if they come in for a specific 
period of time, they are not going to be in a permanent 
situation, they ought to be allowed a waiver from some of these 
conflict-of-interest circumstances, as long as they are fully 
disclosed and everybody understands all of them, because 
failure to do that leaves us naked in an area that, if I were a 
terrorist, would be my first area of attack on the United 
States right now.
    I think we could have greater devastation shutting down 
some computers, hacking into the capacity--talk about 
interoperability of equipment. If you hack into the network 
that these people are using and shut the network down, the 
equipment could be the best in the world and it does not work. 
And having someone focusing on this with the kind of attention 
that it needs is very critical, and we have gone, frankly, 
longer than we should have to create the position, and now we 
have gone a year without anybody in the position. And I think 
it is something that Congress ought to look at because I 
believe the Secretary has laid out his challenge very 
dramatically to us here this morning.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you very much, Madam Chairman.
    Mr. Secretary, I commend you for the effort and the 
intelligence that you bring to this assignment. It is still 
such an incredibly complicated, gigantic thing that I think 
that despite your efforts and a lot of interest in what is 
taking place, there is still some exposure that we ought to try 
to deal with as quickly as we can.
    Do you believe that 100 percent inspection of cargo would 
be a worthwhile endeavor?
    Secretary Chertoff. I want to define three separate things: 
``Screening,'' which means identifying through intelligence and 
information what is in the cargo, we do 100 percent. 
``Scanning,'' running through radiation portal detection 
equipment, we will be close to 100 percent by the end of next 
year. ``Physical inspection''----
    Senator Lautenberg. It currently is 5 percent.
    Secretary Chertoff. No. Running through radiation----
    Senator Lautenberg. Scanning?
    Secretary Chertoff. Scanning through radiation portal 
monitors in our ports will be 80 percent by the end of the year 
and close to 100 percent by the end of next----
    Senator Lautenberg. In our ports. Are you talking about 
cargo containers coming here----
    Secretary Chertoff. Correct.
    Senator Lautenberg [continuing]. Will have already been 
scanned----
    Secretary Chertoff. No. When they arrive, before they leave 
the port, they will have been scanned through radiation portal 
monitors, 80 percent will have been scanned--we will be at 80 
percent by the end of this year and close to 100 percent by the 
end of next year.
    Senator Lautenberg. This is after the container has been 
put down on American soil.
    Secretary Chertoff. Correct. That is correct.
    Senator Lautenberg. And if there is something in there that 
is designed to wreak havoc in our community, would it be a 
little late? It takes some time to get the cargo off the boat 
and----
    Secretary Chertoff. Well, the screening, in terms of 
intelligence-based screening, in terms of what is in the 
container, is something we do--actually a good deal of it we do 
overseas.
    Senator Lautenberg. Yes, I would like to pass that, if you 
do not mind, because screening to me is not really an effective 
way to do it, and I particularly want to focus on the scan 
side.
    Secretary Chertoff. The scanning, some of it we do 
overseas, but the vast majority of it is done once it has 
arrived here. That is why, as I said earlier, I went to Hong 
Kong, we looked at the system they have there, and we are----
    Senator Lautenberg. When did you go, Mr. Secretary?
    Secretary Chertoff. This spring. I think it was March or 
April.
    Senator Lautenberg. This year.
    Secretary Chertoff. And we are working with a number of 
foreign governments now to begin to deploy a system overseas 
that would scan containers before they actually get loaded on 
the ship. The constraint there, as I said earlier, will be 
twofold: It will be making sure that physically they are able 
to do it, given the configuration of the port; and, second, of 
course, the foreign government has to agree because it is their 
port.
    Senator Lautenberg. Do you believe that it can be done? The 
equipment that you saw in Hong Kong, does it work as it is 
suggested, a 2-minute slide-through and a relatively modest 
cost per container?
    Secretary Chertoff. I think it moves quickly, but there are 
some technological barriers. One of them is, depending on the 
nature of the port, sometimes there is background radiation 
that creates a problem. And the second thing is you have to 
have the ability, when you actually do get a red flag, to do a 
timely inspection. The constraint there is whether the foreign 
port has enough inspectors----
    Senator Lautenberg. I am going to interrupt you, as much as 
I hate to do it, because we were friends way before we got 
here. So would it make us safer in any measure, do you think, 
scanning the cargo?
    Secretary Chertoff. Overseas?
    Senator Lautenberg. Yes.
    Secretary Chertoff. Sure, I mean, if we can get it done in 
practical terms and if the foreign governments are supportive, 
that is where we would like to go.
    Senator Lautenberg. Would you think that it is an appealing 
idea--scanning each of 11 million cargo containers entering 
American ports each year is a recipe for crippling our 
manufacturing and commerce, wasting time and money that could 
be better used for other measures, adding little to our 
homeland security? Do you agree with that statement?
    Secretary Chertoff. I want to be real careful because 
people use words in different ways. I think the idea that you 
are going to physically inspect every container is not 
realistic and would, in fact, destroy the entirety of our 
maritime system. I think the ability----
    Senator Lautenberg. Would a nuclear explosion in a cargo 
container destroy our maritime system?
    Secretary Chertoff. It would, Senator, but you could also 
bring a nuclear container through a container on the back of a 
truck coming from Canada. So the logic----
    Senator Lautenberg. So what do we do? Do we just throw up 
our hands----
    Secretary Chertoff. No.
    Senator Lautenberg [continuing]. And say because that could 
happen, why bother?
    Secretary Chertoff. No. Again, what we try to do is we try 
to come up with a risk-based solution, one that raises a 
significant barrier to the risk, but not at the cost of 
destroying that which we are trying to protect.
    I think that a combination of what we are doing with 
radiation scanning here, what we are working with foreign 
governments to do overseas--and I would love to see us do this 
Hong Kong pilot, roll this out overseas, and we are going to be 
doing that over the next few years--I think that is all good, 
and that will really raise the barrier. I do think that 100 
percent physical opening is not realistic.
    Senator Lautenberg. Well, not opening, but, again, 
scanning, if you are looking for radiation, if you are looking 
for explosive materials, and that can be detected promptly.
    I read further from a press report that was handed out by 
this Committee during a press conference before in which it 
declares that 100 percent scanning of cargo containers is a red 
herring, and we say--it says, ``Even if manpower and equipment 
necessary for 100 percent scanning were available, the process 
would impose delays and create massive backlogs at ports. 
Scanning a shipping container takes several minutes. Analyzing 
the scan images can take up to 15 minutes.'' Is that correct?
    Secretary Chertoff. I think, Senator, it is going to depend 
a lot on a number of different things. It is going to depend on 
whether it is a transshipment port, which means you have 
containers coming from Port A to Port B, and then they have to 
be offloaded--that makes it much more difficult and time-
consuming--as opposed to a port where the containers originate 
in the port and, therefore, they just move through in a single 
line. It depends on the physical structure of the port.
    Senator Lautenberg. But it does not necessarily--you are 
not suggesting that it does simply impose delays, create 
massive backlogs at ports? I mean, do you see our industry and 
our economic activity being destroyed by scanning, attempting 
to scan 100 percent of the cargo that comes in?
    Secretary Chertoff. I understand, Senator, you are trying 
to drive me to give you a yes or no answer.
    Senator Lautenberg. Yes, I would like that.
    Secretary Chertoff. If I am going to be accurate, I cannot 
do it. I have got to tell you it depends a lot on the 
individual port. In some ports, we are probably going to be 
able to do something like 100 percent scanning overseas, and we 
are working to see whether we can get some ports in the next 
couple of years to----
    Senator Lautenberg. I am going to be cut off here very 
soon, but there is a bill on the floor of the Senate in which I 
called for 100 percent scanning of containers and am attempting 
to get that done. The Committee has in turn decided that three 
pilot projects would be enough.
    Mr. Secretary, you and I were at a very important event 
yesterday with citizens typically from our State of New Jersey, 
your State and my State, 700 people died; there still is injury 
that affects the health and well-being of people. A firefighter 
died last week who tried to help in the rescue operation 
because of a lung disease that he contracted.
    So when we talk to those people, we make promises that we 
are going to do everything we can to try to keep them safe. And 
to me, when we start talking about pilots when, in fact, we 
have effective equipment--you say the equipment is effective in 
Hong Kong that you saw?
    Secretary Chertoff. I mean, the pilot was effective, but I 
have to qualify it. There were some constraints in the ability 
to use it in real life, and that is what I do not want to do is 
tell the American public we have got a magic bullet and the 
bullet turns out not to be effective. So, I mean--there is 
promise in----
    Senator Lautenberg. So the alternative to that is tell the 
public we are going to ask you to take some more risk while we 
pursue this debate.
    Secretary Chertoff. Senator, I can say this because we are 
old friends. I confront this argument a lot, and there is 
nothing I would like more than to be able to say, Wow, we have 
a way to make every port in the world scan all the radiation 
overseas. But I cannot do that with a straight face because not 
every port is physically constructed to be able to do that, and 
not every country is willing to do that, and I cannot make 
other countries do things.
    It is like I get in my car or I put my daughter in my car, 
I understand it is not 100 percent safe. If I wanted my 
daughter to be 100 percent safe, I would put a 5-mile-an-hour 
speed limit cap on the car, and it would not go more than 5 
miles an hour. But I do not do that because that is more safety 
than we can afford.
    All of us--we have 40,000 people die every year on the 
highway. That is a guaranteed 40,000 who die. We do not require 
that cars be manufactured to go no more than 5 miles an hour. 
So we do judge this----
    Senator Lautenberg. But we require them to be sober and we 
have red lights and we have other things.
    Secretary Chertoff. That is right.
    Senator Lautenberg. We have other protections, and if we--
--
    Chairman Collins. The Senator's time has more than expired.
    Senator Lautenberg. And if we inspected one out of 20 
people going into the White House for tours or coming into this 
place, would we feel secure? I don't think so.
    Thank you very much, Madam Chairman.
    Chairman Collins. Senator Carper.
    Senator Carper. Thanks, Madam Chairman, and thank you very 
much for your testimony, Mr. Secretary, and for your responses 
to our questions.
    I want to come back to a point that you made with respect 
to chemical security, an issue that this Committee spent a 
whole lot of time on, and with the leadership of our Chairman 
and Ranking Member, we hammered out a consensus, at least on 
the surface, and reported a bill out--I don't know, was it 
unanimously or----
    Chairman Collins. Unanimously.
    Senator Carper. Unanimously, which was a minor miracle, as 
I recall, a month or two ago.
    Senator Lieberman. A major miracle.
    Senator Carper. There you go.
    There are those who--and I know Senator Lautenberg spent a 
lot of time on this. He cares a lot about this. Senator 
Voinovich, among others. Among the issues that I think keeps us 
apart is the issue of preemption, how we should deal with 
States that have turned to--in the absence of any kind of 
Federal standards or approach, what States would like to do, 
and a handful of States have already passed, I think, 
legislation or are considering it. Many others are debating it.
    What advice would you have? And apparently this is 
something you think is important, the Department, the 
Administration thinks is important. We have got, I think, one 
other Committee, the Environment Committee, on which I serve, 
and I understand there is some jurisdictional wrangling that is 
going on between our Committee and that committee that might 
keep us from taking up the legislation.
    And the other major issue--and correct me if I am wrong, 
Madam Chairman, Senator Lieberman, but I think the other major 
issue might be preemption. There are perhaps others. But a 
little bit of advice would be welcome as to your willingness--
maybe just, first of all, your willingness as the Secretary to 
work with some of our colleagues on other committees to help 
remove a procedural road block to actually bring chemical 
security to the floor. We have talked about whether or not it 
would be offered as an amendment. The Republican Leader in the 
Senate does not want to waste a lot of time on legislation that 
would get bogged down in a food fight on chemical security. And 
we do not want to spend a whole lot of time on trying to figure 
out what is the right thing to do on preemption, when we are, 
Democrats and Republicans--it is not a partisan issue. It is 
just that people have different views.
    One, your thoughts on how hard you are willing to push to 
try to get something done on chemical security, and 
opportunities, as we do port security legislation this week, 
could be offered as an amendment. I think some folks are 
offering rail security, transit security, which I very much 
support. But rather than give a good testimony, what can you do 
to help us actually get something done this week?
    Secretary Chertoff. Well, I know that we have been working 
very closely with this Committee and other committees on both 
sides of the Capitol on this issue. My desire is to get a 
chemical security bill that gives us the authority to do what 
we are poised to do for that gap area that we do not have the 
authority. And I also do not want to let the perfect be the 
enemy of the good, so what I have told the lawyers who are 
deeply involved in working on this with people on the Hill is 
to focus on what are the essential issues.
    What I am totally unqualified to do is to opine on the ins 
and outs of the legislative process and to give advice as to 
how to best manage through the various committees and the 
various vehicles.
    Senator Carper. Could I interrupt for just a second? I 
spent 8 years as a governor, and I was not supposed to be an 
expert about that stuff either, but I was. And, frankly, you 
have been at this job--you are good. I have a lot of respect 
for you. But you need to have your antenna and your focus on 
that as well.
    When you sit there and you tell us chemical security is a 
major priority of this Department, if you are not prepared to 
weigh in here, roll up your sleeves, and try to get something 
done, it is not as helpful as it might otherwise be.
    Secretary Chertoff. Well, I think we have been doing that, 
and I think we have been up--and I have talked to not just the 
Chairman----
    Senator Carper. If I can interrupt again, Senator Voinovich 
has just come back in. We are talking about chemical security. 
We are talking about jurisdictional disputes here that might 
preclude our getting something done. We are talking about the 
issues of preemption, which I know you have a lot of interest 
in, too. And I am trying to enlist the Secretary's active 
participation in getting some progress here.
    Secretary Chertoff. As I say, I spoke to the Chairman, I 
spoke to the Ranking Member over the last several months, I 
spoke to members of the House leadership, leaders in the House, 
all trying to forge what I thought was a workable compromise 
which would get us the authority to do what we need to do by 
regulation.
    I guess my advice would be to keep it as simple as 
possible, that the more that is laid on something, my 
observation has been, the greater the likelihood it will not 
navigate through the very narrow channel which is available to 
move something like this on. And particularly because what we 
may get in the short term may not be the ideal solution, but it 
will get us a good deal of the way to an ideal solution.
    My weigh-in on this would be let's take the simplest 
vehicle possible, the one with the highest likelihood of 
success in both Houses, and let's try to get that done. And if 
it turns out that we want to add to it later or with the 
experience of time it is inadequate, that is fine. But we 
actually can do a lot now, even with the most bare bones type 
of thing which is out there, and so that is for someone who is 
in the Peanut Gallery, so to speak, that is my coaching.
    Senator Carper. Well, you are not in the Peanut Gallery. We 
are in the car, and these two folks are like--one is driving, 
and the other is riding shotgun, and the rest of the Committee 
is in the back seat. You are not far away.
    Secretary Chertoff. I am in the trunk? [Laughter.]
    Senator Carper. We are going to keep you out of that trunk.
    Chairman Collins. He wants you to be the engine.
    Senator Carper. That is good.
    Chairman Collins. Don't sound surprised.
    Senator Carper. The other thing I wanted to mention, if I 
can, Madam Chairman, to go back to rail security, there are a 
bunch of tunnels that go into New York City. Every day they 
carry, I am told, hundreds of thousands of people in and out of 
New York City. They are submerged. I don't know what body of 
water they go under--the Hudson River or the East River?
    Secretary Chertoff. Hudson River.
    Senator Carper. But they carry a lot of people. I am told 
that if there was an explosion on any one of those commuter 
trains or, for that matter, Amtrak trains, it could not only 
hurt a lot of people on the train, but could actually puncture 
a tunnel, cause flooding into the tunnel, flood that tunnel. 
The water could back into the Penn Station and flood the other 
tunnels as well and create great havoc and loss of life.
    When I look at threats on the rail transit side, that to me 
is like a preeminent threat. You have other threats that 
include tunnels under Washington, DC, and Baltimore. You have a 
lot of bridges between here and New York City and Boston that 
are important as well.
    When you consider transit and rail security in terms of 
actually prioritizing what needs to be done, how do you set 
those priorities? What are the priorities? And how are we doing 
a better job today in rail and transit security than we were a 
couple of years ago? And how do you see us doing even better in 
the next year or two?
    Secretary Chertoff. Well, actually, Senator, that is 
exactly what we do. We looked at exactly the issue you talked 
about. In fact, this past year--in the past, we had looked at 
the issue of rail transit and mass transit in terms of amount 
of trackage, and what we did is we changed that, so now we look 
at trackage underground as opposed to--we tier it. We have 
aboveground, underground, and then underground in tunnels that 
are underwater, of which the third is the highest priority for 
precisely the reason you talk about. And without saying it in 
an open hearing, much of our transit grant decisionmaking this 
last year for the first time was driven precisely by a 
recognition that the consequences of something occurring in a 
tunnel underwater are significantly greater than the same event 
occurring on a stretch of track aboveground. And that is 
exactly the disciplined approach we want to take. We have tried 
to inject, among other things, real science into this process 
now.
    So I would envision that we will continue to push a 
significant amount of the money on a risk basis to precisely 
those elements of the rail infrastructure that have the 
greatest vulnerability.
    Senator Carper. All right. Thanks. The last thing I would 
say, if I may, Madam Chairman, going back to the issue of 
chemical security, I would urge you to be proactive today, this 
week, next week. Thanks very much.
    Chairman Collins. Thank you.
    Mr. Secretary, thank you so much for your testimony here 
today. We obviously could keep you for several more hours, but 
you are in luck that we have several more witnesses. So thank 
you very much for your excellent presentation.
    Senator Lautenberg. Madam Chairman, will the record remain 
open?
    Chairman Collins. The record will stay open for 15 days, as 
it always does, for the submission----
    Senator Lieberman. Madam Chairman, if I may end on a light 
note. Mr. Secretary, I think you made a generationally 
sensitive comment about the Peanut Gallery before. If I 
remember from my youth, that was a term coined during the Howdy 
Doody television show, and I prefer to think of you not as a 
member of the Peanut Gallery but as Buffalo Bob. [Laughter.]
    Secretary Chertoff. I actually thought it was a baseball 
expression from when you were back in the bleachers, but----
    Chairman Collins. I must say this is all completely lost on 
me.
    Senator Lieberman. For obvious reasons. [Laughter.]
    Chairman Collins. Senator Pryor has just arrived, and 
Secretary Chertoff, I want to give him the opportunity, if he 
does want to ask a question.
    Senator Pryor. That is OK.
    Chairman Collins. OK. Thank you, Mr. Secretary.
    I am going to call forward both our second and third panels 
in the interest of time. We are very pleased to have such 
distinguished witnesses with us today: Sheriff Leroy Baca and 
Deputy Commissioner Richard Falkenrath, as well as Steven Simon 
and also Daniel Prieto.
    Sheriff Baca is the Sheriff of Los Angeles County and 
commands the largest Sheriff's Department in the United States. 
He is also Director of Homeland Security-Mutual Aid for 
California Region I, which serves 13 million people. I want to 
say that I had the pleasure of meeting the sheriff through 
Representative Jane Harman on two trips to the L.A. area, and I 
was so impressed with the work that he is doing to strengthen 
the region's defenses against terrorism.
    Dr. Richard Falkenrath was named the Deputy Commissioner 
for Counterterrorism in the New York Police Department in July. 
Prior to joining the NYPD, he was a Fellow at The Brookings 
Institution, and from 2001 to 2004, he served on the White 
House staff, including serving as the First Deputy Assistant to 
the President for Homeland Security.
    Steven Simon is Senior Fellow for Middle Eastern Studies at 
the Council on Foreign Relations and co-author of the book, The 
Next Attack.
    Daniel Prieto is the Director and Senior Fellow of Homeland 
Security Center at the Reform Institute. Previously, he was the 
Research Director of the Homeland Security Partnership and 
Initiative, as well as a Fellow at the John F. Kennedy School 
of Government at Harvard.
    We welcome all four of our distinguished experts here 
today. I want to apologize to you for your having to wait so 
long. We had a greater attendance than we expected today in 
view of the importance of the issues before us.
    Sheriff Baca, we are going to begin with you.

  TESTIMONY OF LEROY D. BACA,\1\ SHERIFF, LOS ANGELES COUNTY, 
                           CALIFORNIA

    Mr. Baca. Thank you, Madam Chairman, and thank you, Ranking 
Member Senator Lieberman, and Members of the Committee, which I 
know have other things to do, and I realize that time is short. 
I have seven points and six categorical recommendations to 
make, and I would like to say that Los Angeles County is one of 
America's engines for imagination and innovation when it comes 
to public safety in view of this recent responsibility of 
homeland security and terrorism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baca appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    The first point on the categorical side here is that 
California is a formal mutual aid State. It has been that way 
since 1950. We have a very defined system in law where local 
government is enabled by State support, through counties as 
well, and that the mutual aid system that we use has been well 
in place and time-tested. Whether it comes to earthquakes, 
fires, any incident of disturbances or attacks, emergency 
activities included, we know what to do.
    Second, California sheriffs are mutual aid coordinators, 
which means it is an integral part of the governmental process 
and governance for mutual aid and first responders. In the case 
of California, and Los Angeles County in particular, each 
regional area--and I happen to be in command of Area I, which 
includes two counties, Orange County and Los Angeles County--we 
serve 10 million people and, therefore, organize over 50 police 
departments and over 40 fire departments in whatever we do in a 
mutual aid context. And therein the law enforcement mutual aid 
coordinator, there is a need for us to operate in an area that 
includes multi-level governance. And that is the operating 
interoperable side of how you manage something in that you have 
many governments working together to work at solving a problem.
    The third point I will make is that we had developed a 
Terrorist Early Warning Group System prior to September 11. 
Although more than 5 years have elapsed since the tragedy of 
September 11, we continue to institutionalize the lessons 
learned of that day. We have Federal, State, and local 
partners, and we aggressively pursue ways to integrate our 
disparate agencies into a seamless network of information-
sharing cooperatives. To understand where the Los Angeles 
County Sheriff's Department is headed, there must be an 
understanding of where we began.
    We formed in 1996 the Terrorism Early Warning (TEW) Group 
System, which analyzes trends and potentials for terror attacks 
within Los Angeles County. The TEW now employs subject matter 
experts from law enforcement, the fire service, public health, 
academia, and the military, all working together to ensure the 
safety of Los Angeles County residents. Representatives from 
the FBI and the Department of Homeland Security also work 
within the TEW to produce high-quality, analytical products 
that are provided to decisionmakers covering a variety of 
subjects related to terrorism.
    The fourth point is our Joint Regional Intelligence Center 
of Southern California that was mentioned earlier. Recognizing 
the value of cooperation between Federal, State, and local 
agencies, leaders from the FBI, the U.S. Attorney General's 
Office, the State Office of Homeland Security, Los Angeles 
Police Department, and the Los Angeles County Sheriff's 
Department decided more than 2 years ago to join together and 
create a model for intelligence fusion centers. The vision 
became reality in July 2006 with the grand opening of the Los 
Angeles Joint Regional Intelligence Center and Mr. Chertoff was 
there.
    Using analytical processes developed by the TEW, analysts 
from a variety of agencies and disciplines create an expansive 
view of trends and potentials that could indicate a potential 
terrorist attack. The U.S. Department of Homeland Security was 
also present at this center, and the components of that 
Department, such as Customs and Border Protection, Immigration 
and Customs Enforcement, Transportation Security Agency, and 
the Coast Guard, are contributing personnel to this 
organization. These agencies possess critical information that 
must be synthesized with local products to make the forecast of 
potential threats clear. I strongly encourage the participation 
of any public agency involved in issues of homeland security 
with its local TEW fusion center to do exactly what we are 
doing in Los Angeles.
    Fifth, we have terrorism liaison officers. This is 
necessary to keep the coordination of communication going on an 
ongoing basis.
    Sixth, there is a formal private sector outreach and 
partnership. It is called the Homeland Security Advisory 
Council. It is chaired by Marc Nathanson, founder of Falcon 
Cable Corporation. We have every possible source of the 
business community involved in this, and we work this Committee 
very hard in a partnership with the National Security--it is 
called the Business Executives for National Security (BENS), 
based here in Washington, and therein integrating the private 
sector into our intelligence process. This is a very big part 
of what we do through infrastructure liaison officers. The 
infrastructure liaison program further expands the network of 
trusted agents to include people dedicated to the critical 
infrastructure protection. This addition to our intelligence 
process creates a comprehensive network that provides a better 
opportunity for the prevention, disruption, or mitigation of a 
terrorist attack.
    I wanted to commend Senator Voinovich for his thoughts 
concerning the Muslim American society. We have a formal Muslim 
American outreach and partnership program. Another key 
component to our strategy is our connection to the Muslim 
community through the creation of the Muslim American Homeland 
Security Congress. Consisting of respected leaders from Muslim 
organizations within Southern California, their mission is to 
foster communication, education, and mutual respect between law 
enforcement and the Muslim community. Programs such as our 
Homeland Security Advisory Council and our Muslim American 
Homeland Security Congress are reflective of our belief that 
homeland security is not an issue that can be resolved through 
traditional police practices only.
    This program will be moving itself to Chicago, and I will 
be traveling with its leaders to Detroit, where our largest 
Muslim American ghetto exists, so that we can further empower 
Muslims to speak up in the securing of our homeland mission 
here in the United States, as well as in nations abroad.
    For the next 5 years--and you have heard this, and I will 
just be very brief so the others can speak. What do we do in 
the next 5 years? Well, there are seven things I would like to 
say.
    First is communications, and you have talked about 
interoperability so I do not need to continue to focus on that. 
But it is a gap that needs to be closed. Second, intelligence 
must be shared vertically and horizontally across jurisdictions 
for analysis, investigative, and operational purposes. Those 
are three key components to intelligence: Analysis, 
investigative, and operational purposes.
    The second point is technology as a general subject. 
Surveillance technology needs additional development and 
standards. There are a lot of things going on out there in the 
world of surveillance, but we do need to have better standards 
on a national scale.
    The next point under technology is detection technology, on 
which we heard a significant amount of comment here by the 
Senators and Secretary Chertoff. Detection technology for 
chemical, biological, and radiological applications needs 
additional development as well. I think that is clear.
    The next point is national technology resources need 
further logistical development for regional and national 
application. In other words, I am talking about shared 
classified technology. For example, the Department of Defense 
and the National Intelligence Community have equipment that 
local police do not have, and we would like to see further 
access to that opportunity to use the equipment.
    Finally under the point of technology, research and 
development of new technology should be jointly managed to 
avoid wasteful duplication. This should be managed by a 
national board of volunteer Federal, State, and local 
intelligence and first responder experts.
    My third point on what can we do in the next 5 years is to 
develop a joint forces training center, a system throughout the 
United States. In other words, develop three or more training 
centers on terrorism for Federal, State, and local first 
responders and intelligence first responders of terrorist acts. 
Currently, the California National Guard and the California 
Mutual Aid Region I, which is Los Angeles and Orange Counties, 
are developing this proposal, and we think it can be a model 
for the rest of the Nation.
    My fourth point is international cooperation, training, 
best practices, and personnel exchanges should be expanded. I 
have traveled to Jordan after the Amman bombings. I have 
traveled to London after the bombings there with the train 
stations. I have traveled to Israel. I have been to Turkey 
after the bombings that have occurred there. And this is a very 
critical part of how we all learn about what is going on in 
different parts of the world. Current plans are underway to 
have training in Paris, France, at the Interpol Headquarters 
led by cities and countries that have experienced a terrorist 
attack. I think we should take every major target city in 
America and have those police chiefs and firefighter leaders, 
along with their mutual aid coordinators, go to this conference 
so that they can hear directly from these countries as to how 
they managed the particular terrorist attacks they have 
endured.
    The fifth point is to continue to fund the National 
Terrorism Early Warning Resource Center that partners with 
local and State law enforcement. There are currently 26 local 
terrorist early warning systems in our Nation today. The long-
range vision and effort is to link more than 50 terrorist early 
warning systems across the country with other local and State 
fusion centers, such as the Joint Regional Intelligence Center 
in Los Angeles.
    Sixth, the Department of Homeland Security's major 
policies--I wish Mr. Chertoff was here, but I have told him 
this before--should be developed in partnership with selected 
experienced local, State, and Federal law enforcement leaders 
in deciding financial, operational, and training policies. The 
UASI grant program is one example where we can improve 
significantly in what we are doing.
    Thank you for listening to my comments. They have been very 
brief in their content. I am talking about unified government, 
unified first responder planning, and I am talking about 
unified leadership, which is what American society wants today 
on this subject of terrorism.
    Thank you very much.
    Chairman Collins. Thank you, Sheriff.
    Mr. Baca. And I have copies of my testimony here.
    Chairman Collins. Thank you. Your full statement will be 
put in the record.
    Dr. Falkenrath.

     TESTIMONY OF RICHARD A. FALKENRATH, PH.D.,\1\ DEPUTY 
    COMMISSIONER FOR COUNTERTERRORISM, NEW YORK CITY POLICE 
                           DEPARTMENT

    Mr. Falkenrath. Thank you, Madam Chairman. It is always an 
honor to be at this Committee, which did so much important 
legislation in the last 5 years for the country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Falkenrath appears in the 
Appendix on page 74.
---------------------------------------------------------------------------
    I want to start by saying a few words about my new job in 
New York City in the New York City Police Department. I think 
as everyone knows, we are the biggest and most densely 
populated city in the country. We have a population of 8 
million people; 40 percent are foreign born. The most diverse, 
ethnically diverse county in America is Queens County. The 
gross metropolitan product of New York City and its surrounding 
areas is $900 billion. That is larger than all but about a 
dozen countries. The New York City Police Department has 52,000 
personnel, a budget of just under $4 billion. That puts it on 
the order, in terms of size, with most armies in the world.
    We have created a Counterterrorism Bureau and dramatically 
expanded the Intelligence Division since September 11. The 
Counterterrorism Bureau I have the privilege of now heading. 
The Intelligence Division is headed for the last 4\1/2\ years 
by a former Deputy Director of Operations of the CIA, backed up 
by a former Deputy Director of Intelligence for the CIA who 
runs our intelligence shop. All together, we have about 1,000 
officers dedicated to counterterrorism and intelligence 
missions and a total budget of on the order of $200 million per 
year.
    We have about 110 to 120 NYPD detectives assigned to the 
Joint Terrorism Task Force at the FBI. They all report to me. 
In addition, we do a very wide range of training and other 
programmatic activities, both for our own people, our partners 
inside the city, other State and local agencies, Federal 
Government agencies, and international agencies from time to 
time.
    We have a cadre of civilian analysts whom we have hired 
since September 11 who are as good as any I saw when I served 
in the White House. They are headed by a Rhodes scholar and 
former Supreme Court clerk. We have an outreach program to the 
private sector.
    The list goes on, and I catalogue this in my prepared 
statement, which I ask be submitted to the record.
    Chairman Collins. Without objection.
    Mr. Falkenrath. The extent of the special events we need to 
handle in New York City is shown this week. Yesterday we had 
the commemoration of September 11. The President of the United 
States was there. Next week, he is coming back, along with 159 
other heads of State. It is the largest, regularly scheduled 
meeting of heads of state in the world, the UN General 
Assembly. We do it every year, have been doing it for 50 years, 
and know how to do it pretty well.
    This is who we are. New York City had to respond after 
September 11 in this way and did. The same could also be said 
in different ways of the other New York City agencies--the Fire 
Department, OEM. They have also stepped up. It just so happens 
that I am the one testifying today.
    A word on the threat. In my testimony, I list 18 recent 
encounters that New York City has had with international 
terrorism in the past 15 years. They have repeatedly targeted 
New York City. That is why we take it so seriously. The most 
recent threat and plot came to light just a couple months ago 
when a leak revealed an extremely sensitive intelligence 
investigation into an ongoing threat against one of our tunnels 
and, in fact, against a critical piece of infrastructure.
    We view the threat to the city as a global phenomenon, and 
hence, we take a global view, which can manifest in our city at 
any moment in almost any way. We do not confine our work and 
our analysis to the five boroughs for which we have direct 
responsibility.
    Globally, clearly on the good side, we have seen a 
reduction in legacy al-Qaeda which attacked us on September 11 
to a fraction of what it was before. This is good. We have also 
seen an improvement in our border security, which has made it 
somewhat more difficult for international terrorists to get 
into the United States to conduct attacks. We do not take any 
comfort from that because the baseline vulnerability was so 
high, but there has been some progress.
    Aside from those two items, though, I would say most of the 
other indicators are bad. We have seen the proliferation of 
extremist Muslim ideology, Muslim militancy, and Salafism, 
which we think is a precursor to terrorism. That proliferation, 
that spread of that ideology has been very well documented 
abroad. A lot of people write about that. They talk about it on 
television. We have observed it, and we have hard evidence of 
it in New York City as well. It has us very worried, and I 
would add, in many surrounding areas, not just in the five 
boroughs.
    The homegrown threat you referenced, Madam Chairman, in 
your question to Secretary Chertoff we are very worried about. 
These are the most common forms of attacks since, and there are 
important implications for how we conduct counterterrorism 
operations if we take the homegrown threat seriously, which I 
will reference. We have seen increasing use of the Internet, of 
course. The threat is very serious. I wake up every morning 
thinking today might well be the day that we get another attack 
in our city.
    Now, recommendations. At your request, we will give a few. 
They will not be confined just to issues of immediate interest 
and concern to NYPD, but I will base them on that.
    First, with respect to Federal counterterrorism, we note 
that the vast preponderance of Federal effort--money spent, 
hours spent by Federal personnel--is international in 
character. It focuses on collecting and countering 
international threats. The domestic counterterrorism effort 
that we have is most powerfully predicated on this 
international effort. Most of the high-profile investigations 
that we have in the United States are begun because of a lead 
that was generated abroad, and those are very important. And 
the FBI has made a huge amount of progress conducting those 
sorts of investigations. We work with them very closely, and we 
now, I am happy to say, have an excellent partnership with the 
FBI for those sorts of investigations.
    We have a problem, however, when you deal with a homegrown 
threat, which has no international connectivity or limited 
international connectivity for which your massive national 
technical collection abroad is unlikely to give you a predicate 
to begin an investigation. Then the question is: How do we find 
out about it in the first place? And there the answer is far 
more likely to be found in the structure of law enforcement-
driven, local, highly tactical intelligence programs of the 
sort we conduct.
    Second, on information sharing. The Federal Government has 
a plan or a vision for how information sharing is supposed to 
work between Washington and State and local agencies, such as 
my own. We are not sure what it is. There is a lot of different 
information sharing going on. Occasionally it is useful. Mostly 
it is not. The one that is consistently useful is the sharing 
of classified information done in the context of the JTTF. That 
works reasonably well for what it is. We have several hundred 
personnel with top secret security clearances, so we are able 
to handle that. Not all agencies are.
    The important thing I would say here is the Federal 
Government cannot try to control this. If they try to tightly 
control it, if they have one single pipeline to the State and 
local issues, it is sure to fail. And so I hope they do not go 
down that road.
    On the watchlist, a couple questions on this one. I believe 
we have an integrated terrorist watchlist in this country. The 
question is how well do we screen against it and when do we 
screen against it. When we book somebody at NYPD, they are 
always checked against the terrorist watchlist because we do a 
national criminal records check, and that is linked up with the 
TSC watchlist and that is good. There are many other areas, 
though, where we could be screening where we are not. When you 
get on an airplane to fly from New York to Washington, DC, you 
are not screened electronically against a watchlist. Secretary 
Chertoff and others here in Washington need to be working on 
that.
    Critical infrastructure protection. I have a lot to say on 
it. I spend a lot of my time on this now that I am in New York. 
For us, it is very tactical. It is about super-high-value 
targets, and we catalogue them. We have studied them. I have a 
list of what we deem to be the 30 or so most dangerous targets 
in New York City. We guard it carefully, and we work on them to 
try to reduce it.
    What we do will depend on the case. In some cases, we might 
close a street. We might put up a vehicle screening center. We 
might put bollards in. We might work with the real estate 
developer or the owner to enforce better standards in their 
design for blast resistance.
    On this I would say we are pretty much on our own. We do 
not get a lot of help from Washington. If Washington wanted to 
do something, it could set a standard for building codes that 
would include blast resistance and performance standards. There 
is no such thing. And it would get a policy on terrorism risk 
insurance. Right now commercial policies do not insure against 
terrorism risk and, hence, the private sector has no financial 
incentive to take really prudent measures against it. They are 
assuming that the Congress will insure them, that if there is 
an attack, they will just buy them out. So there is no 
terrorism risk insurance anymore. And if you wanted to do 
something, that would make a difference.
    The five last items, and then I will stop. Chemical 
security, you know my views on this. I hope something gets done 
in this Congress and to the President's desk. That would be 
great. As a legislative handicapper, I would have to say the 
odds are long. It is late in the season to be doing this. But 
if it happens, great; otherwise, it is to the 110th Congress. 
We will be disappointed, but we have been disappointed before 
on that.
    I would, however, want to state something on ANFO, ammonium 
nitrate and fuel oil. This is the most common explosive. It was 
the one that was used in Oklahoma City to take down the Alfred 
P. Murrah Federal building. It was procured legally and easily 
by those two bombers, and since then we have done nothing--
nothing--federally to improve the security of ammonium nitrate 
fertilizer.
    When you combine it with fuel oil and it is sold 
precombined, it is governed by Title 18 criminal codes. 
Separately--they can be easily combined. Separately, they are 
not governed by anything. We conducted a test, a special 
project to go to upstate New York and other areas to buy fuel 
oil and ammonium nitrate fertilizer to build a bomb. We did it 
with no difficulty whatsoever. We got companies, in fact, to 
deliver supplies and materials to Brooklyn, tripping no wires. 
And we built it in a warehouse in the Bronx. All right. Case in 
point. So do not exclude ammonium nitrate from your chemical 
security legislation.
    On mass transit, in a very real way mass transit security 
is New York's security. A couple statistics. In 10 weeks, more 
people ride the New York City subway than ride all airplanes in 
the entire country all year. One-third of all mass transit 
rides in the country are on the New York City mass transit 
system. If you look just at subways, 65 percent of all subway 
rides in this country are in New York City. The terrorists are 
attacking the subway system worldwide. We think that means they 
are likely to come at ours, which is hugely vulnerable. The 
Federal Government has spent $9 for every air passenger in the 
country and 0.6 cents on every mass transit passenger in the 
country. There is something wrong with this, so if government 
were to be able to do a little bit there, it would help.
    We have 2,700 mass transit cops who never come aboveground 
during their duty. They stay underground, and that is their 
whole job, and they do it on their own with no Federal 
assistance to secure that.
    Ports. I think on the port security, I think this town is 
focused on the wrong part of port security. It has been on the 
container security problem. The real problem, in my judgment, 
is what al-Qaeda has done before when they attacked the Cole, 
which is a small, explosive-laden boat brought up against a 
passenger ferry or a critical infrastructure facility, and it 
is security on the water. And there, again, we are doing it 
more or less on our own. The Coast Guard helps out a little 
bit. They are great partners, but they are really not in New 
York harbor. It is mostly done by New Jersey State Police and 
NYPD Harbor Patrol.
    The last thing I will say on grants. We have big problems 
with how the Federal Government has done grants. That is well 
known. I would say six things.
    First, the overall level of grants from the Federal 
Government to the State and local agencies right now nationwide 
is indefensibly low. The President proposed in February 2002 
$3.5 billion. The level now, depending on what comes out of the 
conference report, is going to be about $1.6, $1.7 billion for 
the whole country for the whole year in 2007. That is nearly a 
$2 billion reduction. That is too low, particularly when we are 
spending $10 billion per month in Iraq. It just makes no sense.
    Second, we believe 100 percent of the Federal money should 
be risk-based, just like the 9/11 Commission, which in its 
review of the implementation of its recommendations gave the 
Congress an F on that matter. That is their opinion.
    Third, of the State grants, we think those need to be 
distributed by the governors on the basis of risk, not spread 
around to all the outlying areas as they wish. DHS, when it 
distributes money based on risk, needs to get a comprehensive 
and coherent way of doing it. We don't think they have one now.
    Finally, I would say DHS needs to permit the charging of 
operational expenses that are dedicated to counterterrorism and 
intelligence activities, separate and distinct units, to the 
grants. They do not currently allow that. If you want to buy 
equipment, that is great. If you want to conduct an exercise, 
that is great. If you want to do a study with Booz Allen or 
SAIC, that is great. But if you want to pay for an intelligence 
operative who is working in a high-threat area, in a very 
dangerous area with a lot of Muslim extremism, no, you cannot 
charge that.
    The last thing, I sincerely hope that the Congress does not 
condition the disbursement of Federal grants on city 
confidentiality policies with respect to immigration. This is a 
very divisive issue in this country, immigration, and there is 
an idea in the House markup that you should not give any money 
to any city that prohibits its employees from talking to ICE 
about a person's immigration status. New York City happens to 
prohibit that in some cases. If the House bill became law, by 
definition we would get no money, and this would be a bad idea. 
It does not make any sense to hold the city hostage to the 
country's ongoing dispute about immigration. Thank you for your 
time.
    Chairman Collins. Thank you. Mr. Simon.

TESTIMONY OF STEVEN N. SIMON,\1\ HASIB J. SABBAGH SENIOR FELLOW 
    FOR MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Simon. Thank you, Madam Chairman. I am grateful for the 
opportunity to address the Committee on this vital topic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Simon appears in the Appendix on 
page 106.
---------------------------------------------------------------------------
    My understanding of the Committee's objectives in holding 
this hearing is that witnesses should focus on the future and 
address themselves to issues that might help both Congress and 
the Executive Branch set homeland security priorities. The 
Committee, it seems to me, is doing the right thing.
    I have some very personal reflections on this issue that 
are fairly broad-brush that I would like to share with you. I 
am going to concentrate on three issues in particular.
    First, the importance of cities as terrorist havens and 
terrorist targets. There has been a lot of talk about that in 
these statements, and the talk is well placed. Second, I am 
going to address myself to the continuing significance to many 
jihadists of weapons of mass destruction. And, third, to the 
need to preserve the good will and sense of belonging of 
America's Muslim communities as a matter of national security 
beyond the intrinsic virtues of a cohesive, considerate society 
in which citizens of all creeds can feel at home.
    On urban warfare, the crucial point is that the jihad that 
has evolved since September 11, 2001, has become a war of 
cities. The transition from caves to condos, as one observer 
described the evolution, has been impressive. The relatively 
remote, rural bases that incubated the jihad had strong 
advantages, especially given the importance of social networks 
to the jihad, but municipalities have their own attractions, as 
other witnesses have indicated. They offer anonymity, but also 
community, both of which can confer a kind of cover.
    Urban neighborhoods, with their numberless apartments, 
coffee houses, mosques, and Islamic centers, provide the 
setting for recruitment, clandestine meetings, preparation of 
weapons, and other activities that form the terrorist 
enterprise. They are not subject to Hellfire missile strikes or 
submarine-launched cruise missiles or things like that. Those 
tools will not work against this kind of presence. Think of 
Mohamed Atta's Hamburg or the Leeds of Muhammad Siddique Khan, 
who was the orchestrator of the July 7, 2005 bombings.
    Qualities that favor the jihadists' defensive requirements 
do not tell the whole story. However, the other side is that 
cities are where their targets--both symbolic and of flesh-and-
blood--are to be found in abundance and proximity.
    New York, as my colleague here has indicated, has shown 
itself to be a crucial target for jihadists. This great city 
was construed by al-Qaeda to be the beating heart of America's 
economy, which bin Laden believed he could cripple; the symbol 
of American arrogance as embodied by the ``looming towers'' of 
the World Trade Center; and the seat, of course, of Jewish 
power, which jihadists believe accounts for the global 
subordination of Muslim interests to America and Israel. It is 
also a teeming city, whose large and densely packed population 
promised the most efficient path to a successful mass attack 
that, from a jihadist standpoint, might even begin to settle 
the score with the United States. There is no reason to think 
that this conviction has weakened. Furthermore, New York City 
proffers the same advantages to the attacker as do all large 
cities.
    The array of targeting opportunities, I might add, in New 
York, as well as in other large cities in the United States, 
particularly Los Angeles, as Sheriff Baca has indicated, is 
quite wide. We can be perversely certain that an attack, when 
it comes, will be the one we least expected, but one can make 
some preliminary judgments. Mass transportation, as has been 
indicated, symbols of authority, financial districts, and, we 
should bear in mind, schools as well, given the importance in 
jihadi propaganda to the depredations that the United States 
has carried out against Muslim children, either directly or 
through Israeli allies.
    Improvised explosive devices like car bombs--the icon of 
urban violence in Iraq and elsewhere--we can expect, as well as 
Palestinian-style backpack bombs.
    Now, the implication of this analysis, I hasten to add, is 
that community policing and extensive video surveillance will 
need to be stepped up. In this kind of urban warfare, 
intelligence is acquired best by those who are most familiar 
with the terrain: Police officers walking their beat. On the 
front line, they get to know their neighborhoods, the residents 
and the shopkeepers, form and cultivate relationships with 
local citizens, and develop a sense of the natural order of 
things and, therefore, of signs that something is out of the 
ordinary or warrants investigation. The pivotal role of local 
law enforcement is reinforced by the incapacity at this time of 
Federal authorities to gather information skillfully, 
discreetly, effectively, and without alienating potential 
sources of intelligence. The FBI, in particular, presently 
lacks the numbers, skills, knowledge base, and orientation to 
contribute.
    This does not mean, as my colleagues here have said, that 
local law enforcement can or should operate in a vacuum, 
especially in light of connections that have been disclosed 
between the self-starter groups in the United Kingdom and al-
Qaeda figures in Pakistan. On the contrary, local police need 
an umbilical connection to national intelligence agencies in 
order to connect the dots they are collecting on the ground. It 
is worth noting, by the way, that the success of the U.K. 
counterterrorism effort in Northern Ireland was largely due to 
the tight linkages between the local police, national police, 
and Britain's domestic intelligence agency that were forged 
early in the conflict.
    Information sharing, which all parties now claim to be 
essential, has not advanced significantly, and to illustrate 
this point, I will just note that, at most, less than 1 percent 
of the detectives or police officers in the United States have 
security clearances that enable them to receive relevant and 
operational kinds of information from Federal agencies. This is 
a circle that clearly needs to widen.
    The other issue we need to focus on is where the police 
officers who will be collecting these dots I referred to are 
going to come from. In the upcoming Federal budget cycle, the 
COPS program is again under pressure to be cut. This program 
has put more than 100,000 policemen on the street. It is an 
invaluable program for American counterterrorist interests at 
home.
    Very briefly, I wanted to highlight the continuing 
importance to jihadists of weapons of mass destruction. On the 
basis of 10 years of dealing with their documents and 
intelligence about them and so forth, I can guarantee to you 
that they are very interested still in acquiring, deploying, 
and using weapons of mass destruction. This puts a premium on 
consequence management. That is the only aspect of this problem 
I will highlight. It will be essential in the wake of an 
attack, and it will be very difficult to prevent a successful 
attack--that is to say, it will be very difficult to prevent a 
well-planned attack. We must be able to respond at the Federal, 
State, and local levels in lockstep and with the appearance and 
reality of deep, deep competence. This will be essential to 
preserving the fabric of our society in the wake of an attack 
and deterring further attacks.
    In operational terms, what I recommend is that there be a 
single Federal enforceable standard for State and local 
capacities for consequence management. Right now in the United 
States, we are all over the place. The Federal Government needs 
to establish a standard, establish milestones and benchmarks. 
This is not just a matter of appropriating funds, but ensuring 
that cities meet a given standard.
    Finally, the September 11 disaster showed that skilled and 
self-possessed and highly determined attackers could do 
tremendous damage to the homeland without an infrastructure. 
But that is not the only way things work. It is not the 
adversary's sole option. Other approaches do require 
infrastructure, in the shape of cells that may or may not be 
linked to outside networks.
    We have a potential problem in the United States with our 
Muslim citizens. According to recent research, they are 
increasingly choosing not to assimilate into American society. 
They have been under huge pressure since September 11. This is 
having its effect. They are finding solace instead in their 
religious identity. Muslim student associations on college 
campuses are growing rapidly as havens for Muslims who prefer 
not to socialize with non-Muslims, and Muslims are building 
Islamic schools as alternatives to the public school system, 
which is perceived as inhospitable. They are trying to thwart 
media bias by developing their own radio stations and so forth.
    These are telltale signs of a growing problem, and the 
evolving attitudes of non-Muslim Americans toward their Muslim 
compatriots are also likely to spur alienation. According to a 
2006 Gallup poll, a third of Americans admire ``nothing'' about 
the Muslim world, and nearly half of all Americans believe the 
U.S. Government should restrict the civil liberties of Muslim 
Americans. This is increasing the pressure on our Muslim 
citizens.
    Now, of course, they have shown no sign of violent protest. 
We really should be sure to keep it that way.
    Now, I have put this issue before the Committee for lack of 
a better place. The challenge outlined here requires leadership 
and a program, yet given the way our government is structured, 
there is no obvious lead agency or Special Assistant to the 
President on the National Security Council or Homeland Security 
Council to formulate a program to provide such leadership.
    We are not the first to face this conundrum. Several years 
ago, in the wake of a Whitehall study showing upwards of 10,000 
al-Qaeda supporters in Great Britain, Her Majesty's government 
tasked the Security Service--MI5--both to dismantle jihadist 
networks and devise a plan to win the hearts and minds of 
Britain's Muslim minority. Ultimately, the Security Service 
balked at the difficult job for which they had no experience or 
clear jurisdiction. We need to do better. Fortunately, unlike 
our sister democracies across the Atlantic, we have time, and I 
urge you not to squander it.
    Thank you.
    Chairman Collins. Thank you. Mr. Prieto.

 TESTIMONY OF DANIEL B. PRIETO,\1\ SENIOR FELLOW AND DIRECTOR, 
           HOMELAND SECURITY CENTER, REFORM INSTITUTE

    Mr. Prieto. Thank you very much, Chairman Collins and 
distinguished Members of the Committee on Homeland Security and 
Governmental Affairs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Prieto appears in the Appendix on 
page 113.
---------------------------------------------------------------------------
    My name is Daniel Prieto. I am Director of the Homeland 
Security Center at the Reform Institute. I want to thank you 
for inviting me to testify before you today on the topic of 
``Homeland Security: The Next 5 Years.''
    At the 5-year anniversary of September 11, the question is 
unavoidable: Is it safe? Dustin Hoffman's answer to that 
question in the 1976 movie ``The Marathon Man'' was 
alternately, ``Yes,'' ``No,'' and ``It depends.'' The same is 
true when it comes to homeland security. For every area of 
progress, significant gaps and vulnerabilities remain.
    In many ways we are safer. Members of the Committee and the 
previous speakers have outlined many areas where we have made 
progress. But in many ways we are not safer. Five years from 
now, there are five areas where we need to make significant 
progress.
    One, we have not fully engaged our citizens and captains of 
industry to protect America.
    Two, we lack a national consensus on priorities, and our 
supposed strategies are not strategic enough. As a result, it 
seems that we are perennially reacting to the latest threat.
    Three, DHS struggles to meet the expectations that 
accompanied its creation. Management is key.
    Four, as the Nation that invented Silicon Valley, the 
Internet, and companies like Microsoft and Google, we are the 
technology envy of the world, but the government cannot seem to 
get it right when it comes to important homeland security 
technology projects.
    And, five, information sharing is very much a work in 
progress, and, in particular, on controversial data-mining 
programs, we are forcing the trade-off of liberty for security 
in an unnecessarily zero-sum game.
    To start out on the first point, we need to engage society 
better, both citizens and the private sector. The inaugural 
National Strategy for Homeland Security argued that ``the 
Administration's approach to homeland security is based on the 
principles of shared responsibility and partnership with the 
Congress, State and local governments, the private sector, and 
the American people.'' While that sentiment was and is correct, 
we have failed to execute on it. We have done too little to 
engage and educate the public. Too many policymakers tend to 
view the general public not as a source of strength, but as 
either victims or prone to panic. Too many officials fear that 
too much information provided to the public will either 
frighten them or aid our enemies.
    This discussion should end. The more informed and self-
reliant we are when the next attack or disaster strikes, the 
better off we will be. The United States will win the war on 
terrorism not by force of arms alone, but by the resolve and 
resiliency of its citizens.
    Brian Jenkins of the RAND Corporation puts it best in his 
new book, Unconquerable Nation: ``We need to aggressively 
educate the public through all media, in the classrooms, at 
town halls, in civic meetings, through professional 
organizations, and in volunteer groups. . . . The basic course 
should include how to deal with the spectrum of threats we 
face, from `dirty bombs' to natural epidemics, with the 
emphasis on sound, easy-to-understand science aimed at 
dispelling mythology and inoculating the community against 
alarming rumors and panic.''
    In addition to educating the public, we need to get to a 
point where public-private partnership for homeland security is 
more reality than rhetoric. Five years after September 11, the 
capabilities, assets, and good will of the private sector to 
bolster our homeland security remain largely untapped.
    Second, homeland security needs to move from tactics toward 
doctrine, especially when it comes to preparedness and on 
critical infrastructure. While many security strategy documents 
have been produced since 2001, most of them are largely 
documents about tactics, methods, and processes. As such, they 
fail to articulate the strategy and doctrine which can guide 
implementation and provide goals with which programs can be 
measured. This is particularly true, as I mentioned before, in 
the areas of preparedness and critical infrastructure.
    On preparedness, we need to create a homeland security 
doctrine that takes a lesson from U.S. military doctrine. If 
our armed forces through much of the last 50 years had to be 
ready to fight two simultaneous wars in different theaters, 
then DHS, the National Guard, NORTHCOM, and State, local, and 
other Federal authorities should be prepared to confront two to 
three simultaneous large-scale homeland security events of the 
kind envisioned by the 15 DHS National Planning Scenarios.
    In support of such doctrine, I see the creation of National 
Guard Special Forces providing specialized and regionally based 
training against the 15 DHS National Planning Scenarios for the 
National Guard. Additionally, it would make sense for NORTHCOM 
to have their own dedicated resources. They are currently only 
allocated 1,000 permanent personnel and $70 million on a total 
DOD budget of $400 billion and 1.4 million active-duty 
personnel.
    On critical infrastructure, we need a strategy that finally 
makes tough choices about priorities. We have fallen into a 
certain political correctness about critical infrastructure as 
if all sectors--computers versus cows versus chemicals--pose 
equal risks. They do not. Some sectors are more important than 
others. In my view, this Committee is doing a very good job 
looking at those priorities because, in my view, the priorities 
are chemical facilities, transportation with an increased focus 
on mass transit and hazmat transport in addition to airplanes, 
and energy, including oil, gas, and the electric grid.
    As a number of the other speakers have mentioned as well, 
it is obviously extremely important to focus on regional 
concentrations of critical infrastructure as well.
    Bills in Congress are rightly seeking to give DHS authority 
over chemical security. At the same time, authorities should 
not stop there. Congress needs to give DHS clear authority over 
security activities at any infrastructure sites that threaten 
large-scale casualties or are critical to the functioning of 
the U.S. economy regardless of sector. For example, DHS should 
have authority to regulate critical energy infrastructure sites 
in order to mitigate known vulnerabilities in the electric 
grid.
    DHS also needs to display better leadership on critical 
infrastructure. First, DHS assumed that the market would 
provide sufficient incentives for companies to adequately 
protect critical infrastructure. That has not happened. Now DHS 
has sharply curtailed protective efforts and is now acting 
largely as a coordinator for the efforts of other agencies. 
This is a mistake.
    Third, security investments can help the overall health of 
America's decaying infrastructure. The American Society of 
Civil Engineers recently graded American infrastructure with 
the grade of D. We need to do better. Security investments can 
make infrastructure healthier, and we need to use all of the 
policy tools at our disposal. I have argued repeatedly for the 
use of greater tax incentives to increase investment in 
critical infrastructure where the private sector is not doing 
enough.
    Third, we need DHS to be a respected and successful 
organization, and to do that, we need to dramatically 
strengthen DHS management.
    The birth of DHS has not been easy. For its successes, it 
has suffered significant failures and missteps, which in my 
view have seriously damaged its credibility. Hurricane Katrina 
was its lowest moment, but it has been beset by a number of 
public missteps on a host of other topics. Due to 
ineffectiveness or immaturity, DHS has increasingly diminished, 
spun off, or shed responsibilities in such areas as 
intelligence and information fusion, critical infrastructure 
protection, and post-disaster housing and health. In the most 
recent Federal personnel survey, DHS employees ranked their 
organization at or near the bottom of nearly every measure of 
effectiveness. Other Departments--Justice, State, the 
Department of Defense--too often do not view DHS as a peer 
organization.
    DHS is falling behind, and the window of opportunity to get 
things right may be closing. DHS risks becoming what I call 
``the DMV of the Federal Government''--widely viewed as 
inefficient and ineffective. If DHS fails to create synergies 
among the many entities it inherited and to mature into a more 
effective organization, we will be worse off as a country.
    I present these facts about DHS not as an indictment. Many 
of the problems were to be expected in a merger integration 
exercise as large and complex as this. My point in raising them 
is to urge this Committee to do all it can to shepherd the 
maturation of DHS. It may be necessary to read between the 
lines when senior DHS officials state that they have all the 
resources and capabilities they need--rosy scenarios which may 
be born of political expediency or pride. To the extent that 
DHS's shortcomings stem from under-resourced or structurally 
weak management, it is essential to not just punish or withhold 
money, but to address the root of the problem by helping 
strengthen management capability and accountability for the 
long term.
    To improve DHS management, key CxO level positions must be 
given greater power and more resources. The Chief Financial 
Officer, the Chief Information Officer, and the Chief 
Procurement Officer continue to lack effective department-wide 
purview and authority. Some changes implemented by Secretary 
Chertoff have helped, in particular, the creation of a Policy 
Office and an Office of Strategic Plans, as well as increasing 
the power of the Deputy Secretary. But an organizational chart 
that has 22 separate divisions reporting directly to the Deputy 
Secretary while failing to fully leverage the CxO positions 
does not make sense. Management control and integration of DHS, 
in my view, remain far too weak.
    Fourth, get technology right. America, as I said, is the 
envy of the world when it comes to technology, but too many 
homeland security projects since September 11 have stumbled, 
from the FBI's virtual case file management to DHS's Homeland 
Security Information Network to border security systems.
    To keep the country safe, we need to make serious and 
sustained efforts to improve how the government deals with 
technology.
    Fifth, and then I will close, we need to develop rules for 
the use of consumer and company data for counterterrorism. In 
May 2006, it was revealed that the NSA was augmenting domestic 
surveillance with large-scale data analysis of consumer 
telephone toll records. That revelation was only the latest 
instance of government efforts to use data-mining and other 
data analysis techniques in the war on terror. There is an 
ongoing controversy over the government's use of private sector 
and consumer data for counterterrorism purposes. Many of these 
programs have raised little controversy. Other ones--DOD's TIA 
and TSA's Secure Flight--have raised concerns and public outcry 
and were shut down by Congress.
    The growth in data analysis efforts marks the recognition 
of a simple truth: Our spies are not well suited to address the 
jihadist terrorist threat. At the same time, government 
programs that analyze commercial data are imperfect and risk 
wrongful entrapment of innocent citizens along with legitimate 
terrorists. That risk is magnified by the fact that the laws 
governing these programs are unclear.
    We need to move beyond an environment where it seems 
different Executive Branch agencies are simply experimenting 
with large-scale data analysis techniques to see what works and 
what they can get away with. In the next 5 years, we need to 
move past experimentation and develop comprehensive 
legislation, guidelines, and rules to govern the growing use of 
consumer and company data in the fight against terrorism.
    Within the next 5 years, Balkanized rules for the 
government's use of company and consumer data need to be 
addressed. Any attempt to harmonize those rules should focus on 
the full life cycle of data: Procurement, receipt, storage, 
use, ability to combine with other data, sharing within the 
government and outside of the government, encryption, 
anonymization, dispute, and redress.
    Clear and consistent rules to govern this activity are 
needed so that Americans do not feel that the only relationship 
between civil liberties and security is a zero-sum game.
    In conclusion, Bill Gates, the founder of Microsoft, has 
said that we always overestimate the change that will occur in 
5 years and underestimate the change that will occur in 10 
years. While we have made progress on homeland security in the 
first 5 years, many of us are frustrated by the pace of change. 
In the next 5 years, we have the opportunity and the duty to 
make America safer and more secure. Five years from now, I hope 
that we have exceeded our own lofty expectations.
    Chairman Collins. Thank you.
    I want to thank all of you for excellent testimony. 
Unfortunately, we have a vote underway that started at 12:10, 
so I am just going to ask one question and then submit our 
additional questions to the record. But our having to 
abbreviate the hearing in no way diminishes our gratitude to 
each of you for coming here today and sharing your expertise.
    Sheriff Baca, my question is for you. I mentioned in my 
opening statement my concern about homegrown terrorists. If we 
increase border security but do not deal with the increasing 
efforts to radicalize Muslim citizens of our country, we are 
going to face a very serious threat.
    You have mentioned an initiative that you have undertaken 
which seems to me to put you far ahead of the Federal 
Government in coming up with a strategy to engage leaders of 
the Muslim community, and I commend you for that. And I am very 
pleased to learn that you are sharing your efforts with other 
cities, such as Detroit. I think that is terrific.
    One area of particular concern to me is the conversion and 
then in some cases radicalization of prison inmates, and we are 
holding a hearing on that issue next week. Could you share with 
us any thoughts you have on strategies to be used to try to 
prevent the radicalization of prison inmates? And do you have 
anything underway in that regard specifically focusing on 
prisons?
    Mr. Baca. Currently the California Department of 
Corrections is aware of an incident that occurred in the city 
of Torrance, which is in Los Angeles County, where inmates from 
the State prison system became radicalized. One, upon release, 
expanded that radicalization to some local community people who 
were not from Muslim nations, but one in particular, however, 
was a Pakistani national who came here and became an American.
    At that point, they engaged in bank robberies and were 
looking to fund themselves to attempt some attacks on targets 
that they had identified within the county. Fortunately, we 
intercepted them in the commission of the crimes, and then 
through search warrants, we were able to find out the in-depth 
nature of their plan.
    Thus, what we have done in California is to alert ourselves 
because the county jail system that I also manage feeds 40 
percent of the State prisoners into the State system. So we 
have intelligence officers in our local jails as well as in the 
State jails, working closely with ``those inmates who have 
leanings toward radical thinking.''
    Chairman Collins. I think there is so much we can learn 
from the L.A. experience, the New York experience, and from our 
two other expert witnesses. In many ways, our larger cities are 
ahead of us at the Federal level in identifying these threats 
and coming up with successful strategies. And that is why it 
disturbs me, Sheriff, to hear, because you and I have talked 
about this before, that DHS is still not tapping into the 
expertise as much as it should when it develops its own 
policies and procedures, and that is something we are going to 
need to push the Department on. I think that is so important. 
And I know you stand ready to help.
    Senator Voinovich.
    Senator Voinovich. Thank you. I am going to follow you. It 
would be very interesting to me to get your observations about 
what the Federal Government is or is not doing in terms of this 
radicalization of the Muslim population in the United States of 
America.
    Dr. Falkenrath, you have mentioned that you see it in New 
York City. Mr. Simon, you have said that you see it. And the 
issue is: What role should the Federal Government play? Who 
should be playing it? And then what models are available around 
the country to try to bring the communities together so that we 
have something that we can try to replicate in other places?
    Mr. Baca. If I may, Senator Voinovich, I was very pleased 
when you made your very strong and appropriate comments about 
your thoughts concerning what Muslim Americans and the 
radicalization issues are in the world and, of course, here. 
Homegrown terrorists are something that we concern ourselves 
with.
    After the bombings in London last year, I came back from 
visiting with the Commissioner of Police and understood clearly 
that we would have to do something more than what we are doing 
now. So I got a hold of the Muslim American leaders in Los 
Angeles County, Shura Council President, which is the president 
of all the mosques, all mosques are nonprofits, got a hold of 
religious leaders. And at the time there was a fatwa that had 
occurred earlier, a few months earlier, from Canada and the 
United States of religious leaders that were Muslims, as well 
as scholars, who said that the Islamic belief and the Koran 
does not authorize and sanction suicide bombers, criminal 
terrorists, and the like.
    We have formed, therefore, the nucleus for what is a formal 
nonprofit called the Muslim American Homeland Security 
Congress, and on the executive board are students from our 
local universities, women, leaders of mosques, scholars, and 
people who are active business people in the Muslim community. 
And I would say that, in deference to my friend to the left of 
me, I don't think that American Muslims are uninterested in 
participating with all of us in protecting our Nation. I think 
they have not organized themselves yet, and this Muslim 
American Homeland Security Congress is the first step through 
that organization. We will go to Detroit, as I mentioned. We 
will go to New York. We will go to Chicago. And we will go 
anywhere in the United States to further the regionalization of 
this national effort. The principal goals are to educate Muslim 
families as to what are the trends of radicalization within the 
home itself. In the London experience, many of those that were 
captured, their families were actually in some form of denial, 
in some form of disbelief that their children were not really a 
part of these terrorist attacks, when, in fact, they were. So 
the self within the family, the educational process within the 
family is a very high priority of this Congress, and also its 
mission is to work closely with law enforcement, to work 
closely with local government leaders, and to not have their 
schools--and we have three Muslim American schools in Los 
Angeles County--be viewed as separatist efforts, which they are 
not. We have Armenian schools. We have French schools. We have 
various ethnic schools. And they are not viewed in the same 
fashion.
    I can say, finally, that all of us, myself in particular, 
since Los Angeles County--and I do want to say Los Angeles 
County has 10 million people. It is the largest county in the 
United States, and we claim to be, like New York, the most 
diverse part of the United States. But we are just going to 
stay at a tie. And I have traveled to Jordan and met with King 
Abdullah. I have traveled to Pakistan and met with President 
Musharraf. I have traveled and met with the leaders of the 
justice system in Turkey, and I have seen what they have done 
in response to the bombing attacks that they have experienced. 
All three of these are Muslim nations.
    What you are suggesting, I am following, and I commend you 
for your vision on this issue because I have heard how 
passionately you feel. American Muslims are patriotic to 
America, and that is why they are here. The radicals that are 
roaming about who are going to seize the moment and think they 
can ride themselves up on the secrecy of some kind of a cover 
is what we have to go after. Those are the needles in the 
haystack, as far as I am concerned, and that should be one of 
the top priorities of the Department of Homeland Security.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you so much for your testimony 
today. It was very valuable to us, and I very much appreciate 
your time.
    The hearing record will remain open for 15 days for the 
submission of additional questions. All those great questions 
that we unfortunately do not get an opportunity to ask you 
today we will submit for the record.
    Thank you again for sharing your expertise and for your 
commitment to this issue. This hearing is now adjourned.
    [Whereupon, at 12:33 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0595.001

[GRAPHIC] [TIFF OMITTED] T0595.002

[GRAPHIC] [TIFF OMITTED] T0595.003

[GRAPHIC] [TIFF OMITTED] T0595.004

[GRAPHIC] [TIFF OMITTED] T0595.005

[GRAPHIC] [TIFF OMITTED] T0595.006

[GRAPHIC] [TIFF OMITTED] T0595.007

[GRAPHIC] [TIFF OMITTED] T0595.008

[GRAPHIC] [TIFF OMITTED] T0595.009

[GRAPHIC] [TIFF OMITTED] T0595.010

[GRAPHIC] [TIFF OMITTED] T0595.011

[GRAPHIC] [TIFF OMITTED] T0595.012

[GRAPHIC] [TIFF OMITTED] T0595.013

[GRAPHIC] [TIFF OMITTED] T0595.014

[GRAPHIC] [TIFF OMITTED] T0595.015

[GRAPHIC] [TIFF OMITTED] T0595.016

[GRAPHIC] [TIFF OMITTED] T0595.017

[GRAPHIC] [TIFF OMITTED] T0595.018

[GRAPHIC] [TIFF OMITTED] T0595.019

[GRAPHIC] [TIFF OMITTED] T0595.020

[GRAPHIC] [TIFF OMITTED] T0595.021

[GRAPHIC] [TIFF OMITTED] T0595.022

[GRAPHIC] [TIFF OMITTED] T0595.023

[GRAPHIC] [TIFF OMITTED] T0595.024

[GRAPHIC] [TIFF OMITTED] T0595.025

[GRAPHIC] [TIFF OMITTED] T0595.026

[GRAPHIC] [TIFF OMITTED] T0595.027

[GRAPHIC] [TIFF OMITTED] T0595.028

[GRAPHIC] [TIFF OMITTED] T0595.029

[GRAPHIC] [TIFF OMITTED] T0595.030

[GRAPHIC] [TIFF OMITTED] T0595.031

[GRAPHIC] [TIFF OMITTED] T0595.032

[GRAPHIC] [TIFF OMITTED] T0595.033

[GRAPHIC] [TIFF OMITTED] T0595.034

[GRAPHIC] [TIFF OMITTED] T0595.035

[GRAPHIC] [TIFF OMITTED] T0595.036

[GRAPHIC] [TIFF OMITTED] T0595.037

[GRAPHIC] [TIFF OMITTED] T0595.038

[GRAPHIC] [TIFF OMITTED] T0595.039

[GRAPHIC] [TIFF OMITTED] T0595.040

[GRAPHIC] [TIFF OMITTED] T0595.041

[GRAPHIC] [TIFF OMITTED] T0595.042

[GRAPHIC] [TIFF OMITTED] T0595.043

[GRAPHIC] [TIFF OMITTED] T0595.044

[GRAPHIC] [TIFF OMITTED] T0595.045

[GRAPHIC] [TIFF OMITTED] T0595.046

[GRAPHIC] [TIFF OMITTED] T0595.047

[GRAPHIC] [TIFF OMITTED] T0595.048

[GRAPHIC] [TIFF OMITTED] T0595.049

[GRAPHIC] [TIFF OMITTED] T0595.050

[GRAPHIC] [TIFF OMITTED] T0595.051

[GRAPHIC] [TIFF OMITTED] T0595.052

[GRAPHIC] [TIFF OMITTED] T0595.053

[GRAPHIC] [TIFF OMITTED] T0595.054

[GRAPHIC] [TIFF OMITTED] T0595.055

[GRAPHIC] [TIFF OMITTED] T0595.056

[GRAPHIC] [TIFF OMITTED] T0595.057

[GRAPHIC] [TIFF OMITTED] T0595.058

[GRAPHIC] [TIFF OMITTED] T0595.059

[GRAPHIC] [TIFF OMITTED] T0595.060

[GRAPHIC] [TIFF OMITTED] T0595.061

[GRAPHIC] [TIFF OMITTED] T0595.062

[GRAPHIC] [TIFF OMITTED] T0595.063

[GRAPHIC] [TIFF OMITTED] T0595.064

[GRAPHIC] [TIFF OMITTED] T0595.065

[GRAPHIC] [TIFF OMITTED] T0595.066

[GRAPHIC] [TIFF OMITTED] T0595.067

[GRAPHIC] [TIFF OMITTED] T0595.068

[GRAPHIC] [TIFF OMITTED] T0595.069

[GRAPHIC] [TIFF OMITTED] T0595.070

[GRAPHIC] [TIFF OMITTED] T0595.071

[GRAPHIC] [TIFF OMITTED] T0595.094

[GRAPHIC] [TIFF OMITTED] T0595.095

[GRAPHIC] [TIFF OMITTED] T0595.096

[GRAPHIC] [TIFF OMITTED] T0595.097

[GRAPHIC] [TIFF OMITTED] T0595.098

[GRAPHIC] [TIFF OMITTED] T0595.099

[GRAPHIC] [TIFF OMITTED] T0595.100

[GRAPHIC] [TIFF OMITTED] T0595.101

[GRAPHIC] [TIFF OMITTED] T0595.102

[GRAPHIC] [TIFF OMITTED] T0595.103

[GRAPHIC] [TIFF OMITTED] T0595.104

[GRAPHIC] [TIFF OMITTED] T0595.105

[GRAPHIC] [TIFF OMITTED] T0595.106

[GRAPHIC] [TIFF OMITTED] T0595.107

[GRAPHIC] [TIFF OMITTED] T0595.108

[GRAPHIC] [TIFF OMITTED] T0595.109

[GRAPHIC] [TIFF OMITTED] T0595.110

[GRAPHIC] [TIFF OMITTED] T0595.111

[GRAPHIC] [TIFF OMITTED] T0595.112

[GRAPHIC] [TIFF OMITTED] T0595.113

[GRAPHIC] [TIFF OMITTED] T0595.114

[GRAPHIC] [TIFF OMITTED] T0595.115

[GRAPHIC] [TIFF OMITTED] T0595.116

[GRAPHIC] [TIFF OMITTED] T0595.117

[GRAPHIC] [TIFF OMITTED] T0595.118

[GRAPHIC] [TIFF OMITTED] T0595.119

[GRAPHIC] [TIFF OMITTED] T0595.120

[GRAPHIC] [TIFF OMITTED] T0595.121

[GRAPHIC] [TIFF OMITTED] T0595.122

[GRAPHIC] [TIFF OMITTED] T0595.123

[GRAPHIC] [TIFF OMITTED] T0595.124

[GRAPHIC] [TIFF OMITTED] T0595.125

[GRAPHIC] [TIFF OMITTED] T0595.126

[GRAPHIC] [TIFF OMITTED] T0595.127

[GRAPHIC] [TIFF OMITTED] T0595.128

[GRAPHIC] [TIFF OMITTED] T0595.129

[GRAPHIC] [TIFF OMITTED] T0595.130

[GRAPHIC] [TIFF OMITTED] T0595.131

[GRAPHIC] [TIFF OMITTED] T0595.132

[GRAPHIC] [TIFF OMITTED] T0595.133

[GRAPHIC] [TIFF OMITTED] T0595.134

[GRAPHIC] [TIFF OMITTED] T0595.135

[GRAPHIC] [TIFF OMITTED] T0595.136

[GRAPHIC] [TIFF OMITTED] T0595.137

[GRAPHIC] [TIFF OMITTED] T0595.138

[GRAPHIC] [TIFF OMITTED] T0595.139

[GRAPHIC] [TIFF OMITTED] T0595.140

[GRAPHIC] [TIFF OMITTED] T0595.141

[GRAPHIC] [TIFF OMITTED] T0595.142

[GRAPHIC] [TIFF OMITTED] T0595.143

[GRAPHIC] [TIFF OMITTED] T0595.144

[GRAPHIC] [TIFF OMITTED] T0595.145

[GRAPHIC] [TIFF OMITTED] T0595.146

[GRAPHIC] [TIFF OMITTED] T0595.147

[GRAPHIC] [TIFF OMITTED] T0595.148

[GRAPHIC] [TIFF OMITTED] T0595.149

[GRAPHIC] [TIFF OMITTED] T0595.150

[GRAPHIC] [TIFF OMITTED] T0595.151

[GRAPHIC] [TIFF OMITTED] T0595.152

[GRAPHIC] [TIFF OMITTED] T0595.153

[GRAPHIC] [TIFF OMITTED] T0595.154

[GRAPHIC] [TIFF OMITTED] T0595.155

[GRAPHIC] [TIFF OMITTED] T0595.156

[GRAPHIC] [TIFF OMITTED] T0595.157

[GRAPHIC] [TIFF OMITTED] T0595.158

[GRAPHIC] [TIFF OMITTED] T0595.159

[GRAPHIC] [TIFF OMITTED] T0595.160

[GRAPHIC] [TIFF OMITTED] T0595.161

[GRAPHIC] [TIFF OMITTED] T0595.162

[GRAPHIC] [TIFF OMITTED] T0595.163

[GRAPHIC] [TIFF OMITTED] T0595.164

[GRAPHIC] [TIFF OMITTED] T0595.165

[GRAPHIC] [TIFF OMITTED] T0595.072

[GRAPHIC] [TIFF OMITTED] T0595.073

[GRAPHIC] [TIFF OMITTED] T0595.074

[GRAPHIC] [TIFF OMITTED] T0595.075

[GRAPHIC] [TIFF OMITTED] T0595.076

[GRAPHIC] [TIFF OMITTED] T0595.077

[GRAPHIC] [TIFF OMITTED] T0595.078

[GRAPHIC] [TIFF OMITTED] T0595.079

[GRAPHIC] [TIFF OMITTED] T0595.080

[GRAPHIC] [TIFF OMITTED] T0595.081

[GRAPHIC] [TIFF OMITTED] T0595.166

[GRAPHIC] [TIFF OMITTED] T0595.167

[GRAPHIC] [TIFF OMITTED] T0595.168

[GRAPHIC] [TIFF OMITTED] T0595.169

[GRAPHIC] [TIFF OMITTED] T0595.170

[GRAPHIC] [TIFF OMITTED] T0595.171

[GRAPHIC] [TIFF OMITTED] T0595.172

[GRAPHIC] [TIFF OMITTED] T0595.173

[GRAPHIC] [TIFF OMITTED] T0595.174

[GRAPHIC] [TIFF OMITTED] T0595.175

[GRAPHIC] [TIFF OMITTED] T0595.176

[GRAPHIC] [TIFF OMITTED] T0595.177

                                 <all>

</pre></body></html>
